<html>
<title> - U.S.-VENEZUELA RELATIONS AND THE PATH TO A DEMOCRATIC TRANSITION</title>
<body><pre>[Senate Hearing 116-106]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-106

                  U.S.-VENEZUELA RELATIONS AND THE PATH TO 
                         A DEMOCRATIC TRANSITION

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              MARCH 7, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-975 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
ROB PORTMAN, Ohio                    BENJAMIN L. CARDIN, Maryland
TED CRUZ, Texas                      TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia


                              (ii)        

  
                           C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator From Florida.....................     1
Risch, Hon. James E., U.S. Senator From Idaho....................     2
Cardin, Hon. Ben, U.S. Senator From Maryland.....................    11
Menendez, Hon. Bob, U.S. Senator From New Jersey.................    13
Abrams, Hon. Elliott, Special Representative for Venezuela, U.S. 
  Department of State, Washington, DC............................    15
    Prepared statement...........................................    16
Green, Hon. Mark, Administrator, U.S. Agency for International 
  Development, Washington, DC....................................    18
    Prepared statement...........................................    20
Arnson, Cynthia J., Director, Latin America Program, Woodrow 
  Wilson International Center for Scholars, Washington, DC.......    38
    Prepared statement...........................................    40
Farnsworth, Eric, Vice President, Council of the Americas, 
  Washington, DC.................................................    44
    Prepared statement...........................................    46

              Additional Material Submitted for the Record

Detenciones Arbitarias de Periodistas en Venezuela...............     7
PAHO Submittal...................................................    60

                                 (iii)

 
    U.S.-VENEZUELA RELATIONS AND THE PATH TO A DEMOCRATIC TRANSITION

                              ----------                              


                        THURSDAY, MARCH 7, 2019

  U.S. Senate, Subcommittee on Western Hemisphere, 
Transnational Crime, Civilian Security, Democracy, 
           Human Rights, and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Risch, Gardner, 
Barrasso, Cruz, Cardin, Menendez, Shaheen, Udall, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. I would like to welcome you to 
the Senate Foreign Relations Committee, Subcommittee on the 
Western Hemisphere, Transnational Crime, Civilian Security, 
Democracy, Human Rights, and Global Women's Issues. We have a 
huge portfolio in this subcommittee.
    But today's hearing is about the United States and 
Venezuela and the path to a democratic transition. Obviously, 
it is timely and it is urgent.
    We have two panels today. On the first panel we are going 
to hear from two witnesses from the executive branch, the 
Honorable Mark Green, who is the Administrator at USAID, and 
the Honorable Elliott Abrams, who is our U.S. Special 
Representative for Venezuela. We thank you both for taking the 
time to be here. I know our members are very interested in this 
topic.
    We will have a second panel of non-government experts, Mr. 
Eric Farnsworth, the Vice President of the Council of the 
Americas, and Dr. Cynthia Arnson, the Director of the Wilson 
Center's Latin America Program.
    I want to thank all of you for being here. Eric was with us 
last year around this time, in April, speaking about the Summit 
of the Americas. I want to thank him for joining us again, and 
so forth.
    And before I go to my opening remarks, the Chairman of the 
full committee is with us, Senator Risch, and his leadership on 
the committee is off to a great start, and I wanted to 
recognize him for some remarks at the outset.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. Well, thank you very much, Chairman Rubio, 
for holding this subcommittee hearing. It is one of what I hope 
will be many. In consultation with yourself, as you know, and 
with the other subcommittee chairmen, we are encouraging having 
these kind of hearings that are able to drill down better than 
the whole committee can on specific issues regarding specific 
regions.
    My hope is, and I know I share this with you, that this 
hearing will underscore our support for the Venezuelan people 
and for the legitimate president of Venezuela, Juan Guaido. I 
think our friends in the media would be very helpful, as we try 
to transition towards much more stability there, to refer to 
Mr. Maduro as the ex-president of Venezuela and not as the 
president. There is only one president of Venezuela right now, 
and that is Juan Guaido.
    The Venezuelan people are to be commended for using the 
rule of law to transition, as civilized people do. Section 233 
of the constitution provided for a way to make a change. They 
have done so. They have done so properly. They have done so 
under rule of law, as civilized people do, and we in America 
want to recognize that and extend our appreciation for that, 
and do all we can to help the Venezuelan people accomplish what 
they set out to do under Section 233 of the constitution.
    Finally, let me say that this is not a partisan issue. This 
is a bipartisan issue. I think everyone recognizes it, and we 
need to pursue it in that vein.
    So again, thank you very much, Mr. Chairman. I am here to 
support you in your efforts to do this.
    Senator Rubio. Thank you for coming this morning.
    So, I want to begin my remarks by answering the question of 
why should we care. It is the most important question that we 
must always answer anytime the U.S. takes a foreign policy 
step. Why should America care about what is happening? In 
particular, why should America care about what is happening in 
Venezuela and democracy and the support for the interim 
government of President Juan Guaido?
    Let me begin by saying the first reason is that the 
humanitarian, political, and economic crisis is not just a 
Venezuelan crisis. It is a regional crisis. Since the year 
2014, 3.4 million, by many estimates, Venezuelans have fled 
Venezuela. That is 10 percent of the nation's population that 
has left the country.
    As a point of reference, it would be the equivalent--if we 
said 10 percent of the U.S. population had left over five 
years, it would be the equivalent of every person living in 
Florida, Maryland, and Massachusetts leaving the country over a 
five-year period.
    Beyond that, over 80 percent of them have migrated into the 
region, into Latin America. About half of them are in Colombia, 
in one country. Today, Colombia in particular, but also Peru 
and Ecuador, are bearing the brunt of the cost of this mass 
migration.
    Further exacerbating it is that the United Nations has 
already projected that if all things continue on the current 
path, this year alone--and I mean the current path before the 
events of January--they estimated that this year alone another 
2 million Venezuelans will leave the country. And I am here to 
tell you that if another 2 million people leave, on top of the 
3.4 million that have already left, and 80 percent of them stay 
in Latin America, it will deteriorate and potentially collapse 
the public services of Colombia and severely impact the same in 
Peru and in Ecuador and in other nations.
    This has the potential to be a regional catastrophe of epic 
proportions. It is already at that level. And that is reason 
alone to care about it, because the United States will be 
directly impacted by that, in particular because of our close 
partnership with Colombia.
    The bottom line is if Maduro remains in power and things do 
not get better, it threatens to trigger a cataclysmic crisis in 
our closest ally at this moment in South America, in Colombia, 
our improving relationship with Ecuador, and our important 
partnership with Peru.
    The second reason why we should care is because the Maduro 
crime family, the Maduro regime, actively, not secretly, not 
covertly, actively participates in the trafficking of cocaine. 
Planes filled with cocaine operate out of Venezuelan airfields 
under the auspices and protection of the Venezuelan military, 
and they deliver cocaine to airstrips in Central America. That 
cocaine is then handed over to drug networks, drug networks 
that along the way destabilize El Salvador and Honduras and 
Guatemala, exacerbating the migratory patterns that we are 
seeing on our southern border. And then that cocaine enters the 
United States and winds up in our streets and in the hands of 
Americans, all under the auspices of the Maduro regime, who 
charges a fee for this service of escorting drug shipments out 
of Venezuela.
    By the way, if you do not pay them their fee, they shoot 
down your plane. If you pay them the fee, they get rich and you 
get to traffic cocaine, and we see the flights, and they are 
protected by them.
    The third reason we should care is that the Maduro regime 
provides safe harbor to terrorist groups like the ELN, the 
group that just killed over 20 police cadets in Colombia in a 
bombing, and they provide auspices and protection and safe 
harbor to other narco-terror groups. What I mean by that is 
these groups operate openly, openly in camps within Venezuelan 
territory, not hidden camps, not covert, clandestine camps, 
open camps that you can see from commercial satellite imagery, 
and they stage attacks against Colombia from Venezuela, and 
they too traffic in drugs destined for the United States, and 
they do all of this with the full support, the full cooperation 
and the protection of the Maduro regime, who, by the way, also 
gets a cut of those proceeds.
    The fourth reason we should care is that the regime has 
openly and repeatedly invited Russia and Vladimir Putin to 
conduct military operations in our hemisphere from their 
territory. They have offered them openly an air and naval base 
free of charge for the Russians to operate from. In fact, just 
a few months ago, two nuclear-capable Russian bombers flew a 
mission into the Caribbean Sea from an airbase in Venezuela.
    The fifth reason we should care is the Maduro crime family 
has close ties to the regime in Iran. In fact, even as we 
speak, Maduro is working to offer the Iranians tons of gold 
stolen from the gold reserves of Venezuela in exchange for 
Iranian projects and services, and there are no projects or 
services offered by the Iranian regime that are good for the 
United States.
    And sixth, as if we needed any more reasons to care, in 
their thirst for hard currency, the Maduro regime is 
irresponsibly, recklessly, and irreparably mining for gold to 
sell in global markets, and it is doing so in a way that is 
creating an irreversible ecological and environmental disaster 
in some of the most sensitive areas of Venezuela, and future 
Venezuelans and, frankly, the region will pay a price for this 
extraordinary economic catastrophe that has not received nearly 
enough attention.
    So, they are destabilizing our closest partners in South 
America; they are driving violence in Central America with the 
drugs that they are helping to ship, which is, of course, 
exacerbating illegal migration; they are pumping cocaine into 
our streets; they are providing Putin a military foothold in 
our hemisphere; they are providing gold to Iran; they are 
destroying the national environment. It is a very compelling 
reason to care about what is happening.
    The Maduro regime is a clear danger and threat to the 
national interests, and I would argue the national security, of 
the United States. This, sadly, is not a new issue for me. It 
has been in the news a lot lately, but I have been working on 
this topic, along with Senator Menendez, since as far back as 
2014, 2013, and we have been working closely and speaking out 
about this since that time.
    The situation grows more dire by the day. It is hard to 
imagine. Venezuela was once the wealthiest country in South 
America--not 100 years ago, not 50 years ago, but within the 
lifetime of everyone in this room.
    Now, the people of Venezuela are the subject of daily 
blackouts, empty store shelves, devastating shortages of food 
and medicine, and a dehumanizing scramble to survive. And lest 
anyone think this is the product of sanctions from the last 
four to six weeks, that is a fraud, that is a lie. This has 
been going on for years because they have stolen the money. 
They steal all of the money. None of the proceeds, none of the 
money they are making from any of this is going into the hands 
of anyone but a small group of cronies who live a life of 
luxury around the world--their families most certainly do--
while the people of Venezuela suffer.
    These 3.4 million people who left Venezuela over the last 
five years left well before any sanctions imposed over the last 
five weeks. And previous to that, by the way, all of the 
sanctions were imposed on individuals, not on the government, 
not on the economy.
    In 2018, a study found that 90 percent of Venezuelans, an 
estimated 31 million people, live in poverty, and worse. 
Venezuelan citizens involuntarily lost, on average, 24 pounds 
in the previous year, which is a stunning statistic when all of 
their leaders are overweight. All the leaders of Venezuela are 
overweight, and yet the people, on average, are losing 24 
pounds in a year.
    Chronic infections and diseases are rampant, and hospitals 
lack adequate supplies to care for their patients. We have 
picture number one over there. It shows a malnourished child in 
Dr. Domingo Luciani Hospital in Caracas, Venezuela. These are 
images we are used to seeing in other regions in the world, not 
the Western Hemisphere. This is the condition of children who 
today are dying, dying in Venezuelan hospitals. The Pan 
American Health Organization has indicated that outbreaks of 
diphtheria, measles and malaria have spread in the country, 
which, by the way, also has a regional impact. Other areas of 
public health concerns also include HIV/AIDS patients who have 
been denied medications and are going to die if they do not 
receive delivery of those medications, not to mention an 
increase in maternal and infant mortality, limited access to 
medicines, and adequate care for people with life- threatening 
chronic conditions. Perhaps the most compelling of all is those 
in need of dialysis.
    Without objection, I would like to introduce for the record 
PAHO's response on the need to maintain an effective technical 
cooperation agenda in Venezuela and neighboring countries. 
These are important statistics to keep in mind.

    [The information referred to can be found at the end of 
this document:]

    Senator Rubio. Shortages of food and medicine and the total 
collapse of social services have created a humanitarian crisis 
and, as I mentioned earlier, migration flows that are 
destabilizing the entire region, including, as I have already 
mentioned, Venezuela's neighbors. I witnessed that firsthand in 
my visit to Colombia just two weeks ago.
    I would caution that over the next few weeks--and I say 
this with a sense of urgency that I cannot overstate--
Venezuela, because of graft and corruption and the 
unwillingness of the Maduro regime to allow humanitarian aid to 
be delivered in the country by anyone, frankly, although they 
claim that they are open to it--they still deny that there is a 
humanitarian crisis despite compelling evidence to the 
contrary. Over the next few weeks, Venezuela is going to enter 
a period of suffering no nation in our hemisphere has 
confronted in modern history.
    As of today, Venezuela has about six or seven days left of 
fuel supplies, this in the most oil-rich country in the world, 
and this is because they have destroyed the domestic production 
capacity. Venezuela is just a handful of days away from running 
out of basic staples--wheat and corn meal and cooking oil--
again because of complete and utter mismanagement. I assure 
you, none of the regime cronies are going to go hungry, but 
millions of Venezuelans will continue to grow hungry, and 
exacerbated in a way we have not seen.
    I regret to report that the suffering people of Venezuela 
are about to experience the most dramatic shortages they have 
ever faced, the implications of which we cannot fully predict, 
but none of it is due to any of the actions taken by the United 
States up to this point. It is entirely the result of the fact 
that its leaders have stolen literally everything they can get 
their hands on, and continue to do that to this very moment.
    The regime, in fact, has used the suffering as a political 
weapon. Forty-two percent of the people in Venezuela depend on 
a government food program they call CLAP. First of all, it is 
also the subject of corruption. That food is imported. The 
cronies steal a percentage of it to resell on the private 
market for their own profit, and then the rest is distributed 
to those who are compliant or loyal to the regime. So if you go 
to a Maduro rally, you get food. If you do not show up at the 
rally, you do not get your CLAP box. If you vote for Maduro, 
and they know how you voted, you get food. If you do not vote, 
or do not vote for him, you do not get food. They have used it 
as a weapon.
    This is why he objects to humanitarian aid, because he does 
not want to lose the leverage that he has over the people of 
Venezuela by using food and medicine against them as a weapon, 
and that is why the United States and our partners from around 
the world have provided and stationed food and medicine on the 
border, to try to avoid this humanitarian catastrophe, not to 
politicize it but to prevent the mass, not just human 
suffering, but additional mass migration that threatens to 
destabilize the region.
    And because denying people food is one of the ways the 
regime controls the population, that is why two weeks ago we 
watched the Maduro regime violently and brutally block food 
from entering the country. Any regime who is threatened by food 
and medicine, that tells you everything you need to know about 
them. They did not just block it, by the way; they burned it. 
They set it on fire. You see in picture number two a truck 
carrying humanitarian aid was burned on the Francisco de Paolo 
Santa Bridge, set on fire by armed criminal gangs of the Maduro 
regime; aid, by the way, that non-violent civilians begged them 
to allow in. In picture number three, right here before me, you 
see a woman kneeling in front of the National Guard officials, 
begging them to permit the entrance of humanitarian aid.
    The regime's response, by the way, was not just to use 
military force, but they have armed paramilitary gangs. They 
have armed these paramilitary gangs that operate in these 
little scooters. They have armed them, and they have done 
worse. They have armed felons. They have released felons from 
jail and told them to go out and kill people and earn your 
freedom that way.
    I want at this moment, with the indulgence of the 
committee, to watch just a brief, 30-second video. It is 
captioned in English. It is from a member of the Maduro 
military who crossed the border, and I want you to read the 
caption of what he says were their orders as he crossed the 
border.
    Senator Rubio. I declare myself loyal to Juan Guaido, 
President and Commander in Chief, Juan Guaido. The government 
wants to massacre the people. The government wants to massacre 
the people. The orders are to kill the people, to release the 
colectivos ``those are the armed gangs'' and ``release 
prisoners on the streets to attack the people.''
    That is not me saying it. That is not a U.S. politician 
saying it. That is a member of the armed forces of Venezuela 
saying it as he crossed the border. Their orders were to kill 
people.
    In fact, at one point what he says, he uses the term 
``plomo,'' which means ``lead.'' Their orders were to use lead 
bullets against the people. That is what it means. And they 
have only grown more brazen since that day.
    For example, Univision reporter Jorge Ramos and his crew 
were detained, detained personally by Maduro, and their cameras 
seized, and to this day not returned, because they did not like 
the questions that they asked. They literally detained them, 
took their cameras, and have not released them to this day.
    Just yesterday, another U.S. journalist, Cody Weddle, was 
arrested by the military intelligence services in an early 
morning raid and held for 12 hours, and then put on an airplane 
and sent back.
    This is an effort to intimidate the press. This is an 
effort to send a message to the press: ``You report on things 
we do not like, this is how we are going to treat you.''
    In the month of January alone, Maduro has detained 24 
journalists, including the recent U.S. citizens detained for 
hours. I want to include a document in the record with the 
number of journalists that have been detained. They are from 
all over the world.
    And without objection, I want to introduce that into the 
record.
    [The information referred to follows:]

           Detenciones Arbitarias de Periodistas en Venezuela


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Senator Rubio. The OAS Secretary General has said, ``The 
systematic attack against the civilian population in Venezuela 
includes murders, imprisonment, and torture, and it is evident 
in the eyes of the international community that we are in the 
presence of crimes against humanity.''
    One of those civilians, who as of today has now spent 212 
days in jail, is Juan Ju Cozens, a 29-year-old member of the 
National Assembly, the democratically elected National 
Assembly, basically their unicameral, democratically elected 
legislative body. He is also a former Venezuelan student 
leader. He was dragged out of his home by masked thugs for 
simply voicing his opposition against the regime. His sister, 
Raphaela, who my office has been in close touch with, and who 
is also a student leader in her own right, is here with us 
today, and I wanted to take this moment to recognize her, and I 
thank her for joining us here today. She does so at great 
danger and personal risk, but that is how important the cause 
is for her and for the people she represents.
    Your presence, your voice in support of not just your 
brother but also the hundreds and thousands of political 
prisoners in Venezuela, is a testament to the suffering of the 
Venezuelan people and the injustice committed by the Maduro 
regime.
    Maduro does not do any of this on his own. It is done with 
the help of three specific nefarious actors: the enslaved 
island of Cuba's government, which has infiltrated all of their 
security forces and is in de facto control of the country--I am 
not exaggerating this; anyone who knows anything about this 
will tell you, Cuban agents are all through every level of that 
government; Russia, which continues to provide them with 
opportunity to evade sanctions and support them in 
international forums; and China, which goes around acting like 
they are the non-interference people but, in fact, are helping 
lead Maduro's effort to block the Internet.
    Among the tactics used by the regime--I have outlined it 
already--under the direction of Cuba, the armed gangs, known as 
the colectivos, these gangs have a presence in the Bolivar and 
Amazonas states, where the trafficking of illegal gold mining, 
as I said earlier, has devastated the environment and created 
unforeseen problems for the ailing economy. Picture number 
five, which is up here, is a picture of those armed gangs and 
how they use them in the streets of Venezuela.
    It was these gangs, along with elements of the military, 
that on the 23rd of February carried out a massacre whose toll 
is still not fully known, a massacre of members of Venezuela's 
indigenous communities on the border with Brazil who are 
seeking to help get humanitarian aid into the country.
    And that is our final picture, a picture of an injured 
Imona Indian, natives to the area, an indigenous community, who 
has been the subject of a massacre that history will write 
about and whose numbers we do not fully know. Unfortunately, 
that massacre has been largely ignored in the mainstream media 
outlets. As they open fire, the military and other irregular 
forces open fire on them and prevent the delivery of aid from 
the Brazilian border.
    But fortunately, the world is waking up to the true nature 
of this crisis. Fifty-four nations, not the United States 
alone, 54 nations, the vast majority of the nations of this 
hemisphere, including under the leadership of the Lima Group, 
which the United States is not even a member of but involves 
all the most important regional partners that we have, have 
recognized Juan Guaido as the legitimate interim president of 
Venezuela.
    Last week, the United States introduced a resolution at the 
U.N. Security Council supporting Interim President Juan Guaido 
and calling for free and fair elections. It was supported by a 
majority of the members of the Security Council. You can, of 
course, guess who vetoed it: China and Russia.
    Before I close, I want to recognize and thank the many, 
many Venezuelans, both in the U.S. and from abroad, who are 
here with us today. I know there are many that have traveled 
from my home state of Florida and many other parts of the 
United States, and I want to applaud your perseverance and your 
fight in this cause, and I would close with this message here 
in the room and to those watching elsewhere, especially those 
in Venezuela: Your fight for freedom and restoration of 
democracy is our fight, and the free world has not and will not 
forget you.
    Maduro's regime believes that he can wait us out. That has 
been his strategy all along: hold on, wait it out, the world 
will lose focus, they will stop paying attention, they will 
move on to other things, and the opposition will fracture.
    We are not going to forget about it. We are not going to 
lose attention. We will be on this as long as it takes and no 
matter how hard it is. It is in our national interest. It does 
honor to our legacy as a nation that believes in the dignity 
and human rights of all people, and it is something that we are 
strongly committed to, as I hope you will take away from 
today's hearing. There may be debates about tactics, but there 
is no debate, I believe, no real disagreement among our parties 
here in the United States that the people of Venezuela deserve 
far better than to be in the grips of a criminal organization, 
as they are today.
    With that, I want to introduce the ranking member, Senator 
Cardin.
    I know also that the ranking member of the full committee 
is here and has been very engaged, and I would open up to him, 
however you want to handle that.

                 STATEMENT OF HON. BEN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    First, on behalf of the Democratic members, I want to 
congratulate you on your chairmanship of this subcommittee. I 
look forward to working with you.
    I very much appreciate that the very first hearing of our 
subcommittee is on Venezuela. Your comments, particularly your 
closing comments, I believe represent the consensus of both 
parties here on this committee, and that is that the Maduro 
regime has no legitimacy and that the Venezuelan people deserve 
a democratic government, a government that will protect their 
human rights.
    So I think this is the right hearing for us to start, and I 
look forward to working with you.
    I also appreciate the fact that you acknowledged Senator 
Menendez, the ranking member of the full committee, and when I 
complete my opening comments, I would ask that he be recognized 
for an opening statement.
    Senator Menendez has been our leader in this hemisphere. He 
has been our leader now globally, but he has been our leader in 
this hemisphere, and certainly his statements in regard to 
Venezuela echo and have been in the leadership of many of the 
statements that you have made in your opening statement.
    And lastly, let me thank the witnesses for their patience. 
We are a little bit more lengthy in our opening comments. I 
hope the Chairman will be tolerant of the clock today, because 
I do think the seriousness of the subject, the timeliness of 
the subject, and the importance of us working with the Trump 
Administration to help the people of Venezuela could not be 
more urgent. So I very much appreciate the importance of this 
subject.
    The Venezuelan people have suffered the consequences of 
this tragic manmade humanitarian and human rights crisis for 
far too long. Through their enduring resilience and 
perseverance, they have now had an historic opportunity to 
restore democracy, prosperity, and the rule of law to their 
country.
    Mr. Chairman, I wholeheartedly agree with your assessment 
of the staggering corruption, mismanagement, authoritarianism, 
and criminality used by the Maduro regime and his loyalists to 
oppress the people of Venezuela. Decades of slow erosion of 
democratic norms and human rights, along with the selfish 
motivations of a dictator, have precipitated this crisis.
    It is tragic that the Maduro regime would rather feed their 
own greed than allow millions of hungry Venezuelan children and 
families to access the food and humanitarian aid they 
desperately need.
    As you pointed out, the loss of body weight of the average 
Venezuelan is shocking, 24 pounds according to a study done in 
2017. It is called the Maduro diet. So while Maduro's inner 
circle enrich themselves with billions of dollars of ill-gotten 
funds, the Venezuelan people lack basic necessities. They live 
in fear of being killed, robbed, or kidnapped by criminal 
groups which operate with impunity, and even outright 
government approval, as you pointed out in your opening 
statement.
    Today, Caracas has the sad distinction of being the world's 
most dangerous city.
    Under these dire circumstances, the Venezuelans are fleeing 
their country in record numbers. An estimated 3 million have 
fled over the past five years, resulting in a refugee crisis 
unprecedented in this hemisphere. Our Latin American neighbors 
have given refuge to millions of fleeing Venezuelans, and I 
applaud their efforts. It has been extremely challenging for 
the surrounding countries. I had a chance to talk to 
Administrator Green about this yesterday, and it is incredible 
what the surrounding countries are doing in order to meet these 
needs.
    I am aware, Mr. Chairman, that your home State of Florida 
has also received fleeing Venezuelans. The crisis hits close to 
home for many of my constituents in Maryland, as well. This is 
truly a regional crisis affecting the entire hemisphere, as you 
pointed out.
    For all these reasons, both moral and practical, the crisis 
in Venezuela commands our attention. I support the U.S. and OAS 
and other donor efforts to provide humanitarian assistance to 
those in need, including Venezuelans who have fled their 
country. As I talked with Administrator Green yesterday, we can 
get access with regards to those that are outside of Venezuela, 
but within Venezuela it is much, much more difficult.
    I similarly support the use of economic tools like Global 
Magnitsky sanctions to target the Maduro regime's worst 
offenders. Targeted sanctions provide accountability and 
prevent criminals in the regime from using the banking system 
to hide their stolen assets. They do not want to keep their 
assets in Venezuela. They would like to be able to do that 
globally, and we can prevent that.
    I call on our partners to consider imposing their own 
Magnitsky-like sanctions on the Maduro regime to amplify the 
impact of the sanctions. Regime officials should not be allowed 
to hide the proceeds of their corruption overseas and send 
their family members to live abroad in luxury while their 
country starves.
    As we are well aware, there are also clear steps that the 
Maduro regime can take to get themselves de-listed from 
sanctions. Those currently keeping this illegitimate government 
in power and blocking aid from entering their country should 
know it is not too late to do the right thing.
    Our partners and allies in Latin America and worldwide have 
formed a powerful chorus calling for a peaceful return to 
democracy in Venezuela. More than 50 countries have joined us 
in recognizing the legitimacy of the Guaido government. I hope 
that others will continue to do so.
    The United States, along with our global partners, can help 
the interim government resolve the crisis peacefully so that 
the Venezuelan people can finally fully reclaim their country.
    I really do appreciate the witnesses that are here today. I 
really look forward to Mr. Abrams and Administrator Green. We 
thank you for your long service to our country and your 
continued service to our country.
    Mr. Chairman, with your permission, I would like to yield 
to the ranking member of the full committee, Senator Menendez.
    Senator Rubio. Senator Menendez?

                STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, let me start off by commending 
Senator Rubio, Chairman Rubio, and Senator Cardin for convening 
today's hearing. I think it is a critically important time to 
be talking about the Western Hemisphere. Nothing rises, in my 
mind, higher at this moment than Venezuela, and, of course, 
following that, Nicaragua, as well.
    And thank you, Administrator Green and Special Envoy 
Abrams, for being with us today.
    I think the one thing we should walk away from this hearing 
with today is that Democrats and Republicans are united as one 
on behalf of the people of Venezuela, on recognizing Interim 
President Juan Guaido as the legitimate interim president of 
Venezuela, and in our pursuit of democracy and human rights for 
the Venezuelan people.
    Venezuela is at a crossroads, one in which a dictator 
clings to power amidst the ruins of a failed state, and one in 
which democratic actors seek a peaceful transition and the 
reconstruction of their country and their society.
    The Maduro regime has inflicted widespread suffering on the 
Venezuelan people--I think the Chairman made his opening 
remarks very extensive on this question--from a manmade 
humanitarian crisis, to an economy in freefall, to the violence 
perpetrated by security forces, colectivos, and the regime's 
death squads.
    Maduro is a criminal dictator who has destroyed a country. 
His election and inauguration are illegitimate--not because we 
say it, but because the world says it--and his grip on power 
comes only from the oppression of his people, the assets he has 
stolen from them, and the military leaders he has paid for 
their loyalty.
    The fact that he is closely advised by Cuba and bankrolled 
by Russia and China only complicates matters.
    There is, however, a democratic process by which members of 
the legitimately-elected National Assembly exercised their 
power under the Venezuelan constitution to designate Assembly 
President Juan Guaido as interim president of Venezuela.
    Embracing this process to restore democracy in Venezuela, 
it was critically important that more than 50 countries 
recognized Guaido as the interim president.
    This unprecedented coalition spans our hemisphere and the 
world, from Canada, Colombia, Argentina, Ecuador, and Brazil to 
the United Kingdom, France, Spain, Germany, and Japan, to 
mention a few.
    I strongly support the Administration's decision to 
recognize Guaido, as well as its efforts to expand sanctions 
against specific individuals, and to work with regional 
partners to deliver much needed humanitarian aid. And I believe 
firmly in the full use of U.S. political and economic pressure 
to create the conditions necessary for a negotiated solution 
that includes Maduro's departure and Venezuela's peaceful 
return to democracy.
    So we must ask: Where do we go from here? As the Guaido 
government works to restore democracy, the global community 
must not waver in our support for the Venezuelan people.
    In 2014, when I was chairman of the Senate Foreign 
Relations Committee, we passed the first set of sanctions and 
efforts to restore democracy to Venezuela. Last week I authored 
bipartisan legislation to extend Temporary Protected Status to 
Venezuelans in the United States, and in the coming weeks I 
plan to introduce comprehensive legislation aimed at pressuring 
the Maduro regime further and helping the Venezuelan people 
rebuild their country.
    My legislation will expand humanitarian assistance. My bill 
includes provisions to increase pressure on the regime, but it 
will also send a message particularly to the military inside of 
Venezuela and to regime officials: If you want a future in 
Venezuela, and if you want a future free of U.S. sanctions that 
will follow you anywhere in the world, then you must recognize 
the legitimate interim president, Juan Guaido, and you must not 
have blood on your hands. You must not have blood on your 
hands.
    However, for our economic and financial sanctions to be 
truly effective, they must be matched by actions from our 
allies. We must, by example, encourage our partners to make 
similar investments.
    During my travel to Europe for the Munich Security 
Conference last month, I took every opportunity to raise 
Venezuela with European leaders, stressing the importance of 
coordinating our humanitarian and our sanctions efforts, and 
the interim president's push to organize new democratic 
elections.
    What I would caution is that the support that we have lent 
unequivocally to Venezuela does not include the use of force. 
These comments threaten the international consensus that has 
created an opening for positive change and a return to 
democracy.
    Despite our collective hopes, the events of the last 
several weeks did not lead to the quick win that the 
Administration seemed to expect. As we have learned throughout 
our history as a nation, confronting tyranny requires sustained 
commitment.
    It is increasingly clear that the struggle for democracy 
and freedom in Venezuela is going to take some time, 
discipline, and a strategy based on a keen understanding of the 
complex situation on the ground.
    But Maduro is not invincible; he's far from it. Since 
January 23rd, more than 500 soldiers and several high- ranking 
regime officials have defected, including two generals and the 
former head of the intelligence service. Moreover, President 
Guaido further exposed Maduro's weakness by returning to 
Venezuela on Monday, doing so not by sneaking across the border 
but by landing at Caracas airport.
    We have a unique opportunity before us.
    So, in closing, I know that I have heard that the 
Administration has a Plan A, B, C, and D. I look forward to 
hearing what those are at this hearing so that we can 
understand how we can strategize together, coordinate together, 
to achieve the ultimate goal of the freedom of the Venezuelan 
people and the opportunity to restore democracy in Venezuela, 
and to make it once again a nation among the family of 
hemispheric nations that observes the rule of law, democracy, 
and has the respect of its people's rights.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    We will begin with our witnesses.
    Mr. Abrams?

 STATEMENT OF THE HON. ELLIOTT ABRAMS, SPECIAL REPRESENTATIVE 
    FOR VENEZUELA, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Abrams. Thank you, Chairman Rubio and Ranking Member 
Cardin, and Chairman Risch and Ranking Member Menendez, members 
of the committee. Thanks for the opportunity to testify here.
    We are witnessing in Venezuela one of the worst 
humanitarian disasters ever in our hemisphere, as you have 
said, and the largest displacement of people in Latin American 
history. Well over 3 million Venezuelans have fled to 
neighboring countries.
    This crisis is, as has been noted, all manmade by a small 
and venal group acting without the slightest concern for the 
people of Venezuela.
    The Venezuelan people have the commitment of the United 
States Government to work with them as they restore their 
democracy and rebuild the prosperity of their nation.
    First, we will keep putting the pressure on Nicolas Maduro. 
We are putting an end to his regime's use of PDVSA as a source 
of vast corruption. We have implemented sanctions that are 
cutting off vital sources of cash to this corrupt regime's 
pockets. We are applying the full weight of individual 
sanctions on Maduro's supporters, and are revoking their own 
and their families' visas. We are working with the 
international community to freeze the regime's bank accounts 
across the globe.
    We are also making it clear that it is never too late to 
change. We will provide off-ramps to those who will support 
democratic change in Venezuela and do what is right for the 
Venezuelan people.
    We have at the same time answered Interim President 
Guaido's call for humanitarian help. I am sure the 
Administrator will have more to say about that. But the total 
of the United States' support is just now short of $200 
million. We have stocked warehouses in Cucuta, Colombia full of 
food and basic medicines at the border and are seeking ways of 
bringing those supplies into Venezuela and having them 
distributed to people in need.
    Maduro and his cronies, and some of their cheerleaders 
abroad, claim that delivering humanitarian assistance is a 
political show and a cover for military intervention and a 
violation of Venezuela's sovereignty. But let's be clear: only 
the Maduro regime is using violence. Only the regime is 
shooting at unarmed protesters and aid workers. Only the regime 
has betrayed Venezuelan independence and sovereignty by 
submitting to Cuban influence in Venezuela's military, 
security, and intelligence agencies, as Chairman Rubio noted. 
Only the regime uses food and medicine as a political tool for 
social control. Their repeated mention of military intervention 
is simply a ploy designed to divide the broad, unified 
international coalition of now 54 countries supporting 
democracy in Venezuela.
    It is becoming clear that the great majority of the armed 
forces and the National Guard do not want to carry out the 
Maduro regime's shameful orders. The use of armed gangs 
suggests that Maduro has real doubts about the loyalty of the 
Venezuelan military.
    For those members of the armed forces who are still on the 
fence, fearing retaliation by Maduro's Cuban accomplices, we 
are asking them to show their pride and patriotism, and we 
believe they have a key role to play in rebuilding their 
homeland.
    Interim President Guaido and the political parties in 
Venezuela's legitimate National Assembly have all stated that 
the transition to a new post-Maduro Venezuela will be a multi-
party, inclusive process. It will include Chavistas and others 
of every political background who see a democratic future for 
Venezuela, led by the Venezuelan people, not a Venezuelan 
dictator and a small corrupt crew.
    We are grateful for the leadership of our partners in 
supporting humanitarian assistance for the people of Venezuela, 
and supporting their demand for democracy. We are witnessing an 
historic shift in this hemisphere toward solidarity and shared 
interests, and with 54 countries that have now recognized 
Guaido as interim president, we can be proud that we have 
helped galvanize the effort to restore democracy and liberty to 
Venezuela.
    Each day, courageous Venezuelan patriots struggle to make 
Venezuela free, often at their own real peril, and Interim 
President Guaido has injected a new energy into the collective 
hope of those who want to return to a Venezuela that benefits 
all Venezuelan citizens, not just Maduro and the inner circle.
    So, Mr. Chairman, we stand united behind the Venezuelan 
people. Like the vast majority of Venezuelans, we believe the 
time to end Maduro's wholesale destruction of Venezuela is now. 
And when Venezuelans succeed in ending the dictatorship and 
restoring liberty, it will show despots and dictators not only 
in our hemisphere but in the rest of the world that people's 
desire for freedom cannot be extinguished.
    Thank you, Mr. Chairman, members of the committee, Ranking 
Member Cardin, Chairman Risch, Ranking Member Menendez, for 
having me here today. I look forward to answering your 
questions. Thank you.
    [The prepared statement of Mr. Abrams follows:]

                  Prepared Statement of Elliott Abrams

    Chairman Rubio, Ranking Member Cardin, and Members of the 
Committee, thank you for the opportunity to testify on the 
Administration's approach to Venezuela. I thank all of you for your 
interest in one of the most pressing foreign policy issues before us. 
We are witnessing one of the worst humanitarian disasters ever in our 
hemisphere. And it is all man-made, by a small and venal group acting 
without the slightest concern for the people of Venezuela.
    On February 23, the world witnessed disgraced former president of 
Venezuela Nicolas Maduro and his wife joyfully dance after his criminal 
gangs murdered more than 25 people, injured more than 80 others, and 
set fire to and destroyed humanitarian assistance that could have fed 
hungry children, provided medicines to the sick, and saved lives. His 
henchmen, like Freddy Bernal, released prisoners from jail and paid 
them--along with terrorists groups like the ELN--to shoot, harass, and 
intimidate indigenous people and aid workers who only wanted to bring 
long-awaited relief to Venezuelans. And the effects of Venezuela's 
crisis are not limited to its own borders. We are witnessing the 
largest displacement of people in Latin American history. Well over 
three million Venezuelans have fled to neighboring countries.
    In short, while his own people starve and bleed, the Maduro regime 
celebrates.
    Every day that goes by, the suffering of the Venezuelan people 
grows. But every day, we also see Maduro grow weaker and that's why the 
Venezuelan people should not lose hope. We now know Maduro can no 
longer depend on the loyalty of those around him. He may dress up his 
thugs in military and National Guard uniforms to make it appear he has 
support, but his use of armed gangs suggests his real doubts about the 
loyalty of the Venezuelan military. Maduro's back is up against the 
wall. Surrounding him on all sides, he has people who despise him--
people just waiting for the right moment to show him the door.
    It's becoming clearer that the vast majority of the Armed Forces 
and National Guard do not want to carry out Maduro's shameful orders. 
For those members of the armed forces who are still on the fence, 
fearing retaliation by Maduro's Cuban accomplices, we have told them 
that now is the time to take a stand because Maduro is waging war 
against his own people. We are asking them to show their pride and 
patriotism by lifting their own people out of this crisis. Their people 
need them now more than ever and they have a key role to play in 
rebuilding their homeland. Interim President Juan Guaido, his 
representative in the United States Ambassador Carlos Vecchio, 
political parties in Venezuela's legitimate National Assembly, and the 
National Assembly's economic recovery planners have all Stated that the 
transition to a new, post-Maduro Venezuela will be a multi-party, 
inclusive process. It will also include chavistas and others of every 
socio-economic background who see a democratic future for Venezuela, 
led by the Venezuelan people--not a Venezuelan dictator and a small, 
corrupt crew.
    In the meantime, Mr. Chairman, the Venezuelan people have the 
commitment of the United States government to work with them as they 
restore their democracy, restore a proper respect for human rights, and 
rebuild the prosperity of their nation.
    First, we will keep building the pressure on Nicolas Maduro. We are 
putting an end to his regime's pillaging of PDVSA, once called the 
``crown jewel of the people,'' as a source of vast corruption. We have 
implemented sanctions that are cutting off vital sources of cash to 
this corrupt regime's pockets. Customers for Venezuela's oil are 
dwindling, reducing the regime's ability to sustain itself and enrich 
insiders. We are also working with the international community to 
freeze the regime's bank accounts across the globe. We are revoking 
their own and their families' visas and we are applying the full weight 
of individual sanctions on Maduro's supporters.
    We are also making it clear that it is never too late to change. 
Off-ramps are available to those who concretely support democratic 
change in Venezuela and do what is right for the Venezuelan people.
    At the same time, we have answered interim President Guaido's call 
for humanitarian help. Vice President Pence's February 25 announcement 
of nearly $56 million in additional humanitarian assistance to support 
the regional response to the Venezuela crisis brings the total United 
States government response to more than $195 million, including more 
than $152 million in humanitarian assistance and approximately $43 
million in development and economic assistance. On January 24, 
Secretary Pompeo announced the United States is ready to provide more 
than $20 million in initial humanitarian assistance to the people 
inside Venezuela. We have stocked warehouses full of food and basic 
medicine at the border crossing of Cucuta, Colombia, and are seeking 
ways to bring these supplies into Venezuela and have them distributed 
to people in need.
    Maduro and his cronies, and some of his cheerleaders abroad, claim 
that delivering humanitarian assistance is a political show--a cover 
for a military intervention and a violation of Venezuela's sovereignty. 
But let me be very clear: only the Maduro regime is using violence. 
Only the regime is shooting at and killing unarmed protestors and aid 
workers. Only the regime has betrayed Venezuelan independence and 
sovereignty by submitting to Cuban influence in Venezuela's military, 
security, and intelligence. Only the regime uses food and medicines as 
political tools for social control. Their repeated mention of U.S. 
military intervention is simply a ploy designed to divide the broad, 
unified international coalition of 54 counties supporting democracy in 
Venezuela.
    We are grateful for the leadership of our partners in supporting 
humanitarian assistance for the people of Venezuela and supporting 
their demand for democracy. The European Union, Argentina, Brazil, 
Canada, Chile, Colombia, Guatemala, Honduras, Panama, and Peru, all 
swiftly condemned the use of violence and called for the delivery of 
much-needed humanitarian assistance. Their words, and their actions, 
are making a real difference in this crisis. As a result, we are 
witnessing a historic shift in our hemisphere toward solidarity and 
shared interests--recognizing we are stronger together. With 54 
countries that have now recognized Guaido as interim president, we can 
be proud that we have helped galvanize a global effort to restore 
democracy and liberty in Venezuela.
    Although Maduro's dictatorial actions have cost lives and inflicted 
great pain and suffering, we are witnessing a massive outpouring of 
hope, courage, and tenacity by the Venezuelan people. They are openly 
condemning a regime that has brought them nothing but sadness, anger, 
and misery. The protests of 2017 were significant. What we are seeing 
today should humble and inspire us all: Venezuelans from all walks of 
life united in an enduring struggle to end this nightmare. Each day, 
courageous Venezuelan patriots struggle to make Venezuela free, often 
at their own peril. They are bringing change to Venezuela through their 
bravery. And over the last few weeks, they have been heard. Interim 
President Juan Guaido has injected new energy into the collective hope 
of those who want to return to a Venezuela that benefits all Venezuelan 
citizens, not just Maduro and his inner circle.
    The United States stands behind Interim President Guaido 100 
percent. More importantly, Mr. Chairman, we stand united behind the 
Venezuelan people. We will not abandon them in this difficult moment. 
Like the vast majority of Venezuelans, we believe that the time to end 
Maduro's wholesale destruction of Venezuela is now. And when 
Venezuelans succeed in ending the dictatorship and restoring liberty, 
it will show despots and dictators not only in our hemisphere, but in 
the rest of the world, that the people's desire for freedom cannot be 
extinguished.
    Thank you Mr. Chairman, Ranking Member, and Members of the 
Committee. I look forward to answering any questions you have.

    Senator Rubio. Administrator Green?

 STATEMENT OF THE HON. MARK GREEN, ADMINISTRATOR, U.S. AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Green. Chairman Risch and Ranking Member Menendez, 
Chairman Rubio and Ranking Member Cardin, members of the 
subcommittee, thank you for this opportunity to discuss the 
ongoing crisis in Venezuela, and thanks to all of you on both 
sides of the aisle for your leadership on this very important 
topic.
    One of our challenges this morning may be that we are 
running out of terms to adequately capture the level of 
suffering that Venezuelan families are facing each and every 
day. Hyper-inflation, by some estimates approaching 2 million 
percent, and rampant food shortages have wrecked the ability of 
countless families to make ends meet. According to the 
Venezuelan Society of Pediatrics and Childcare, 80 percent of 
children under 5 are in some stage of malnutrition. Nearly 90 
percent of hospitals are experiencing medicine shortages, and 
almost as many are without reliable power or water.
    Infectious diseases previously eliminated or controlled are 
now surging. A diphtheria outbreak that began in July 2016 has 
now escalated to nearly 1,560 cases, including 270 deaths. All 
of this affects the larger region. Of the roughly 17,000 
measles cases recently diagnosed in the region, most have been 
traced to outbreaks inside Venezuela.
    Well over 3 million Venezuelans have already fled into 
neighboring countries, and, as was stated, this is the largest 
cross-border exodus in the history of the Americas. Of course, 
the crisis is all the more outrageous because it is entirely 
manmade and regime driven. From government takeover of huge 
sectors of the economy to rampant kleptocracy, from destroying 
governing checks and balances and civil rights to forcing 
doctors and other professionals to flee, the regime has caused 
a once-prosperous nation to essentially implode.
    As if all of this were not enough, Maduro saves some of his 
worst for his treatment of humanitarian assistance. For one 
thing, he heartlessly continues to claim, in the face of all of 
the suffering and sorrow, that there is no crisis, that his 
government is already fully providing for the Venezuelan 
people. As recently as 2016, he claimed the country's health 
care system was among the best in the world. Far worse, his 
regime often uses his country's plight to increase his hold on 
power. He has regularly manipulated social assistance programs 
to reward supporters, enrich cronies, and influence votes. 
Credible reports show he has skimmed millions from social 
welfare programs, and there is evidence that he has used 
identification cards in ways that tied food assistance to votes 
and political support for the regime.
    Needless to say, USAID does not view the Maduro regime, or 
the networks it controls, as an appropriate means for 
delivering relief. However, the good news is that we actually 
see rays of hope for both a real humanitarian partnership and a 
more democratic, prosperous future in Venezuela. That good news 
is the emergence of Juan Guaido as interim president, 
officially recognized by the U.S. and more than 50 other 
countries.
    I have recently spoken with Interim President Guaido and 
his representatives, both by phone and in person. They thanked 
us for USAID's support for democracy in Venezuela, and that 
should be particularly gratifying to all of you because of the 
democracy assistance programs for Venezuela that you have 
invested in over these last five years on a bipartisan basis. 
This assistance has supported local organizations working on 
human rights, civil society, independent media, electoral 
oversight, and the democratically elected National Assembly.
    Guaido's team has also requested our assistance to begin 
addressing some of the urgent needs of everyday Venezuelans. 
USAID, with support from the Departments of Defense and State 
and others, has responded.
    First, we are continuing to provide support to the 
surrounding region in the form of urgently needed food, health 
care, protection, and shelter to both Venezuelans and host 
communities. Over the last two years our assistance has totaled 
more than $195 million.
    Second, now that we have a leader with whom we can partner, 
we have taken steps to pre-position humanitarian assistance 
close to the border for eventual delivery into Venezuela. Since 
February 4th, the U.S. Government has pre- positioned more than 
525 metric tons of urgently needed humanitarian assistance, 
food aid, emergency medical items, hygiene kits, water 
treatment units, and nutrition products. In fact, this very 
day, Deputy Administrator Bonnie Glick is accompanying our 
latest shipment of humanitarian assistance and medical supplies 
aimed at helping hospitals and clinics to Cucuta.
    The U.S. Government is hardly alone. A dozen-plus countries 
have made concrete pledges, and five, including the U.S., have 
already taken steps to pre-position assistance. In addition, we 
know that private-sector sources are also attempting to respond 
to Guaido's request.
    As you are no doubt aware, on February 23rd, Interim 
President Guaido and courageous Venezuelan volunteers attempted 
to bring some supplies from the international community, 
including some from USAID, across the border. Unfortunately, 
they were confronted by security forces alongside colectivos.
    It is clear that the Venezuelan people will not be deterred 
by Maduro's brutality or cowardice, and neither will the U.S. 
Government. We will continue to support Interim President 
Guaido's efforts to deliver aid to his people in Venezuela, and 
we will continue to support Colombia and others that are 
hosting Venezuelans who have fled.
    We all recognize that humanitarian assistance, however 
badly it is needed, is treatment, not cure. It cannot address 
the root cause of the problem. So long as Maduro and his 
cronies continue to crush the people, their economy, and their 
hope, this crisis will worsen. They deserve a return to 
democracy, rule of law, and citizen-responsive governance.
    Thank you, Mr. Chairman. Thank you to all of you for your 
support. With that continued support, we will continue in our 
efforts to support the people of Venezuela, the interim 
president, to restore democracy and prosperity.
    [The prepared statement of Mr. Green follows:]

                    Prepared Statement of Mark Green

    Chairman Rubio, Ranking Member Cardin, and distinguished Members of 
the Subcommittee, thank you for the opportunity to discuss the 
situation in Venezuela and our work to support those affected by the 
crisis.
    For years, Members of this Subcommittee have called attention to 
the corruption, economic mismanagement, and oppression that are the 
hallmarks of the former, illegitimate Maduro regime, and I appreciate 
your continued leadership on this issue. In particular, I would like to 
thank Chairman Rubio for his leadership. I appreciated our recent time 
together in Colombia, where we saw firsthand some of the effects of the 
crisis, as well as aspects of our response efforts. I would also like 
to thank Ranking Member Cardin for sustained focus on assisting the 
Venezuelan people, including the legislation he introduced in the last 
Congress. Your ongoing support and input is critical to our work.
    It will come as no surprise to the Members of this Subcommittee 
that the situation in Venezuela is severe and continues to deteriorate. 
In fact, one of our great challenges is finding words to adequately 
convey the suffering that Venezuelan families feel each and every day. 
Hyperinflation and food scarcity have driven the monthly cost to feed a 
family to 100 times the monthly minimum wage. Crumbling infrastructure 
has disrupted water and sanitation services. Nearly 90 percent of 
Venezuelan hospitals are experiencing medicine shortages, and almost as 
many are without reliable power or water. No longer able to meet their 
basic needs, almost 3.5 million Venezuelans have fled to neighboring 
countries and beyond, creating the largest cross-border exodus in the 
history of the Americas; the effects of this crisis extend well beyond 
the country's borders.
    The collapsing health care infrastructure in Venezuela has led to 
surges of infectious diseases within the country and, increasingly, 
throughout the region. This includes diseases that had previously been 
eliminated or controlled. An outbreak of diphtheria that began in July 
2016 has escalated to nearly 1,560 cases as of January 2019, resulting 
in 270 deaths. Dengue has taken its toll as well, with more than 2,400 
confirmed cases in 2018.
    Again, the effects of these outbreaks are not limited to the 
country itself. In 2016, 86 percent of malaria cases in one Brazilian 
municipality were attributed to Venezuelan immigration. The majority of 
the approximately 17,000 measles cases throughout the region have been 
traced to outbreaks inside Venezuela. Recently, nearly 50 
epidemiological specialists urged health-care authorities to declare a 
region-wide public health emergency due to ongoing disease outbreaks, 
stemming from Venezuela--malaria, measles, Chagas disease, 
leishmaniasis, Zika virus, and dengue virus were all cited.
    Of course, mere numbers fall short of telling the full story. Two 
weeks ago, I visited Cucuta, Colombia, a short distance from the 
Venezuela border. There, I saw firsthand the human toll of the 
illegitimate Maduro regime's disastrous policies and actions. Speaking 
with the Venezuelans who had managed to reach this city, I heard 
accounts of children starving, hospitals running out of medicine, and 
people forced to walk hundreds of miles over several days to cross the 
border in search of help. One young mother, with tears streaming down 
her face, told me how she had to leave her 7-year-old child behind when 
she fled. As I know you all agree, the horror of the situation is all 
the more painful because Venezuela was once one of the region's 
wealthiest countries.
    The United States has a long, proud tradition of standing with 
people and countries in their time of need, and acting when it can to 
save lives and alleviate human suffering. It is who we are as 
Americans. Of course, that principle is especially important when it 
comes to crises in our own hemisphere, because our national security 
interests are also at stake.
    Again, this crisis is entirely man-made and regime-driven. Rather 
than save lives, Maduro's sole objective is quite clearly holding on to 
his own power--regardless of the misery it causes. As a consequence, 
humanitarian assistance from the U.S. and elsewhere cannot be entrusted 
to his control and networks of distribution. Remember, to this day, 
Maduro claims there is no crisis in Venezuela--that the government is 
already adequately providing for its people. At the same time, his 
illegitimate regime is heartlessly using food and other life-sustaining 
supplies as tools to further oppress and control the lives of 
individuals. For example, according to industry sources, Maduro 
controls 100 percent of bakery flour inside the country. His regime 
decides who receives flour and how much. Much of the time, this basic 
necessity is made available only to Maduro's key supporters and allies.
    But, for the first time in some years, there are real rays of hope. 
The U.S. and other leading democracies rejected the results of last 
May's illegitimate elections. We have repeatedly recognized the 
National Assembly as the only legitimate government body, duly elected 
by the Venezuelan people. And on January 23, 2019, we became the first 
country to officially recognize Juan Guaido as the Interim President of 
Venezuela under the country's constitution. Interim President Guaido's 
leadership has provided new inspiration for everyday Venezuelans to 
continue bravely resisting Maduro's tyranny, despite the very real 
risks posed by their courage.
    I myself spoke with Interim President Guaido on January 30, 2019. 
During that call, I reaffirmed the United States commitment to continue 
supporting the Venezuelan National Assembly, as well as other key 
democratic actors, such as local civil society organizations and the 
independent media. We agreed to work together to help restore dignity, 
human rights, and democracy in Venezuela. Interim President Guaido also 
requested our assistance in helping him begin to meet some of the 
urgent needs of his people.
    In response to his request, USAID and the Department of State--with 
support from the Departments of Defense and others--has pre-positioned 
humanitarian assistance in Colombia close to the border for eventual 
delivery into Venezuela. The State Department's Bureau of Population, 
Refugees, and Migration simultaneously staged assistance in Brazil. All 
told, since February 4, the U.S. Government has pre-positioned more 
than 400 metric tons of urgently needed humanitarian assistance, 
including food aid, emergency medical items, hygiene kits, water 
treatment units, and nutrition products, on Venezuela's two longest 
borders.
    At President Trump's instruction, we have closely coordinated these 
efforts with the international community. President Ivan Duque of 
Colombia and President Jair Bolsonaro of Brazil, in particular, have 
been key allies in our efforts. I was honored to join Vice President 
Pence at his February 25 meeting with members of the Lima Group in 
Bogota, Colombia. The U.S. is grateful for our allies in the region who 
have stepped up to help the Venezuelan people in their hour of need.
    As you are no doubt aware, on February 23, 2019, Interim President 
Guaido and courageous Venezuelan volunteers attempted to bring these 
supplies and other assistance from the international community across 
the border. Unfortunately, they were confronted by more evidence of the 
illegitimate Maduro regime's callous disregard for the Venezuelan 
people. Maduro's security forces, alongside colectivos--armed gangs 
under Maduro's control--blocked trucks carrying life-saving assistance. 
They fired tear gas, rubber bullets, and set vehicles on fire. Members 
of Venezuela's Pemon indigenous group had peacefully organized the 
transport of supplies from Brazil, but they were viciously attacked by 
regime security forces. There are reports that Maduro deliberately 
released convicts from prison, entreating them to join the violence. 
Several members of the Pemon community were killed, among dozens of 
fellow Venezuelans who were wounded by gunshot in an attempt to bring 
in assistance that Venezuela so desperately needs. It was a shocking 
display of brutality, but par for the course for Maduro and his thugs.
    It's clear that the Venezuelan people will not be deterred by 
Maduro's brutality or cowardice--and neither will the U.S. Government. 
We will continue to support Interim President Guaido's efforts to 
deliver aid to his people in Venezuela, and we will continue to support 
Colombia, Peru, Ecuador, Brazil, and others that are hosting 
Venezuelans who have fled. To date, the U.S. has provided more than 
$195 million, including more than $152 million in humanitarian 
assistance and approximately $43 million in development and economic 
assistance, to aid those Venezuelans who have left the country. That 
funding has supported the provision of urgently needed food, health 
care, protection, and shelter, to both Venezuelans and host 
communities. We are not alone in this effort. Many of our close allies 
have pledged support, and many private citizens have already 
contributed assistance to the region, as well.
    We all realize that humanitarian assistance, no matter how badly it 
is needed, is treatment, not a cure. It cannot address the root cause 
of the problem. So long as Maduro and his cronies continue to crush the 
people of Venezuela, their economy, and their hope, this crisis will 
worsen. As in Cuba, Nicaragua, and other places where people are 
suffering under authoritarianism, we know the answer to Venezuela's 
problem is human liberty and democracy, which remain the highest and 
best hope for people everywhere.
    Venezuelans deserve a return to democracy, rule of law, and 
citizen-responsive governance. Despite the current turmoil, I am 
optimistic that a brighter day is ahead. The doomsayers talk as though 
freedom is in irreversible decline, but the only way freedom and 
democracy will fall away is if we let them. Interim President Guaido, 
and the other Venezuelans I have spoken with during my travels 
throughout the region, are determined not to let that happen, and we 
are proud to stand with them in their struggle.
    Mr. Chairman, Ranking Member Cardin, Members of the Subcommittee, 
we are witnessing a truly historic times for Venezuela and our 
hemisphere. As President Trump recently said in Miami, ``the people of 
Venezuela stand at the threshold of history, ready to reclaim their 
country--and their future.'' With Congress' support, we at USAID will 
continue our efforts to support the Venezuelan people and help Interim 
President Juan Guaido and the National Assembly restore democracy and 
prosperity to Venezuela.

    Senator Rubio. Thank you.
    I am not going to use the full opening time. I have three 
quick questions, Mr. Abrams.
    The first is, is it the policy of the United States to seek 
a peaceful solution and transition to democracy?
    Mr. Abrams. Yes, it is.
    Senator Rubio. And you spend 100 percent of your time in 
search of a peaceful transition to democracy?
    Mr. Abrams. That is correct.
    Senator Rubio. Second, the Maduro regime--well, let me ask 
you this. Yesterday, Ambassador Bolton put out a statement in 
which he put foreign financial institutions on notice that they 
will face sanctions for being involved in facilitating 
illegitimate transactions. What kind of sanctions are being 
contemplated?
    Mr. Abrams. We have sanctioned a number of financial 
institutions already, and we are going to expand the net. We 
have under consideration other institutions which I will not 
name because we do not want them to get advance notice, but 
there will be more sanctions on financial institutions that are 
carrying out the orders of the Maduro regime to steal funds 
from Venezuela and hide it all around the world.
    Senator Rubio. And my final question is, Maduro's strategy 
is to wait us out. He thinks if he can wait long enough, we are 
going to get distracted and focus on something else, the 
opposition will fracture, and he will be able to hold on. It is 
the one way he has bought himself time. The other is four 
separate instances in which these negotiations, he used them 
basically to buy time.
    Will Maduro wait out the United States, or is our 
commitment on this issue to be on it as long as it takes and no 
matter how hard it is?
    Mr. Abrams. That is our commitment, and I think it is both 
a bipartisan commitment and one that the Congress and the 
Administration share.
    Senator Rubio. Thank you.
    Senator Cardin?
    Senator Cardin. As we have all pointed out, there is strong 
bipartisan support for the Administration's policies as it 
relates to the recognition of the interim president, and the 
people of Venezuela, and the illegitimacy of the Maduro regime.
    This is happening in our hemisphere. Three million people 
have left Venezuela.
    Mr. Abrams, I take it that we are supporting the Colombia 
decision to have an open border so that those that are escaping 
the tragedy in Venezuela are being welcomed in Colombia.
    Mr. Abrams. We are, and we are trying to provide some 
financial support for Colombia to help defray the very large 
expenses that they are undertaking.
    Senator Cardin. So, I want to ask you a direct question. We 
are judged not only by our words but also our actions, and we 
know that there are Venezuelans coming to our border. In 
previous times we have had open borders for those who are 
escaping persecution once they establish themselves as leaving 
an area where they are not safe. They can either use asylum, or 
we use Temporary Protected Status. We have done both. In some 
cases we have had very open policies, the Cubans who came to 
America.
    What is the Administration's policy in regards to those who 
are coming to our border? Do you support their being welcomed 
here in the United States to seek asylum and that they could be 
protected under TPS status?
    Mr. Abrams. We know that that is a great concern of yours 
and Senator Rubio's, who has introduced a bill on this with Mr. 
Menendez, and we have this policy actually under review right 
now.
    I would say that there are 74,000 asylum applications right 
now from Venezuela.
    Senator Cardin. What is there to review? We all have 
pointed out the urgency of this situation. This is not a matter 
that can wait. So I am somewhat puzzled as to what there is to 
review.
    Mr. Abrams. If one decides to move in that direction, there 
are a number of ways to do it--administratively, by TPS. So one 
of the things one has to decide is what exactly are you going 
to do once you decide to protect Venezuelans who are here. And 
as I say, there are 74,000 who are here who have applied for 
asylum, so they are, in a sense, being protected by the delays 
in that process. But they have come to the United States, and 
they are here, asking us to allow them to stay here.
    Senator Cardin. I would just point out that clarity here, 
to me, is extremely important. We are asking the region, 
countries in the region, to make extraordinary sacrifices in 
order to protect the lives of people. Our actions will be 
judged very much by what we do. When you say it is under 
consideration, that tells me that we are not acting in a timely 
way, and that presents to me a challenge for us and our 
leadership in that region.
    Mr. Abrams. Well, thank you, Senator. I will happily take 
this back to discuss with the Secretary. As you know, it is not 
only a State Department issue. It is a DHS issue, as well. But 
we will move forward on that.
    Senator Cardin. You mentioned sanctions against financial 
institutions, and I strongly support what you are doing there. 
I want to get to individual sanctions, the use of Global 
Magnitsky or other sanction tools that we have available.
    There needs to be a clear message to those who are part of 
the Maduro machinery, whether they are in the military or not 
in the military. Are we aggressively using individual sanctions 
to make it clear that people that are in power under Maduro 
have a choice: If they follow his leadership, they will be 
sanctioned, and we will maintain those sanctions and seek 
international support for those sanctions; but they have an 
opportunity to do what is right for the people of Venezuela?
    Mr. Abrams. We are. We have sanctioned dozens of regime 
officials. There will be more sanctions. There were about a 
half-dozen more a few days ago. There will be more. There are 
also visa revocations. I announced 49 last week. The Vice 
President announced 77 more for regime people and their 
families who we do not want in the United States.
    Senator Cardin. And have we made it clear that there is a 
path forward, that if they do what is right for the people of 
Venezuela----
    Mr. Abrams. Yes. Every time we do this we note that these 
visa revocations, for example, and sanctions are all 
reversible.
    Senator Cardin. And, Administrator Green, I want to 
underscore a point that we talked about yesterday. Yes, we need 
to provide humanitarian aid to the 3 million, and we are doing 
that, and I appreciate that, working with our partners 
globally. We need to do everything we can to get humanitarian 
assistance into Venezuela, which is extremely challenging, and 
we need to do that.
    We also have to recognize the regional impact, particularly 
in Colombia, which has over 1 million. There is a need there, 
but also as it affects our plans for Colombia; it is now 
impacted.
    Can Colombia continue its peace process and integration of 
its communities and economic progress with the impact of the 
Venezuelans who have come to their country? Is that on your 
radar screen?
    Mr. Green. Thank you for the question, and it absolutely 
is. You are right, the cost to the other countries in the 
region is not only the immediate humanitarian costs of 
assistance, but it affects their economic growth, it affects a 
number of things. So, yes, we are working with countries in the 
region, specifically and perhaps most of all with Colombia, to 
help them with a number of the other challenges that they are 
taking on.
    Senator Cardin. I would ask that, particularly in this 
budget cycle, that we be engaged on this, because it is going 
to be a challenge for Colombia to meet its goals in regards to 
their peace commitment. So we would welcome working with you as 
to the tools you need to help make that a reality.
    Thank you, Mr. Chairman.
    Mr. Green. Thank you.
    Senator Rubio. I just want to briefly recognize that we 
have been joined by Ambassador Vecchio, the legitimate 
ambassador to Venezuela, recently appointed by Interim 
President Guaido and confirmed by the National Assembly. Thank 
you for joining us.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Ambassador Green, we all strongly condemn the Maduro 
regime's violent attacks and murders of civilians seeking 
humanitarian aid in Venezuela. While the people of Venezuela 
are enduring a serious humanitarian crisis, Maduro is happy, it 
seems, to let the people of Venezuela suffer. He is denying 
food, denying medical care to his own people who are 
desperately in need of assistance. We know that stockpiles of 
life-saving assistance, including food and medicine and hygiene 
kits, are piling up at the border of Colombia and Brazil. The 
Chairman has been down to help in those efforts. So we strongly 
all urge Maduro to let humanitarian aid into Venezuela.
    Could you talk a little bit about just how much, if any, of 
U.S. humanitarian assistance is actually reaching the 
Venezuelan people?
    Mr. Green. Well, first off, of course, much assistance is 
reaching those who have fled, as we know, into the neighboring 
countries. In terms of those who have remained behind who are 
still in Venezuela, we know that there are private sources out 
there or individuals who are providing assistance and taking it 
across.
    In terms of the assistance that we are all referring to 
that was pre-positioned in these recent weeks; tragically, on 
February 23rd, we all saw those events of the violent 
confrontation where the two trucks were set on fire. We just 
recently in the last few days did a complete inventory. The 
good news is the losses were relatively minor, so that 
assistance is being repositioned.
    It really is up to the leadership of Interim President 
Guaido. This assistance was pre-positioned at his request-
specific requests from Guaido to President Trump, Secretary 
Pompeo, and all of us. So we are working with him and following 
his lead.
    Senator Barrasso. Senator Cardin used the word ``urgency,'' 
and we all have a sense of urgency. So if a political 
transition does not occur quickly and Maduro continues to 
prevent humanitarian assistance to his own people, could you 
talk about the likely impact on this humanitarian situation in 
Venezuela?
    Mr. Green. I saw a statistic the other day that suggested 
that in the time that Maduro has been in power, the economy of 
Venezuela has contracted by 50 percent, and the estimate is 
that if things do not change it will contract another third 
this year. So we will see a profound collapse, and it is not 
even just the availability of food and staples. When you have 
inflation hitting, by some estimates, 2 million percent, nobody 
has the ability to buy anything anyway. So there will be 
profound despair and hopelessness.
    But I will say this: my money continues to be on the 
Venezuelan people. I believe Maduro's days are numbered. I do 
not know what that number is, but when I was down there just 
last week, the remarkable energy and courage of the Venezuelan 
people tells me that this will eventually end the right way.
    Senator Barrasso. Mr. Abrams, I see you shaking your head 
yes about the length of the ability of the Maduro regime to 
stay in place. The world saw the Assad regime remain in power 
as a direct result of being propped up by outside countries, 
such as the military and the financial backing from Russia and 
from Iran. These countries were willing to support a ruthless 
dictator who was willing to brutally murder his own people and 
destroy his own country.
    As you look at the Maduro regime's frantic attempts going 
on right now to remain in power, what countries do you see 
attempting to help keep him in power against the people?
    Mr. Abrams. The two critical supports, as Senator Rubio 
said, are Russia and Cuba. There are thousands and thousands of 
Cuban military and intel people all around Maduro. They 
permeate the regime. Russia has supplied tens of billions of 
dollars. As soon as we did the pedevesa sanctions, Maduro 
turned to Russia to purchase more oil to sell what they need to 
be able to continue exporting oil. So those are the two 
countries that are really propping up the regime most.
    Senator Barrasso. And then the final question, because 
Ambassador Green talked about the economy constricted by 50 
percent and another 50 percent coming in terms of the future, 
Mr. Abrams, what economic reforms need to occur into the next 
administration in order to reverse the destruction of the 
Maduro regime that he has unleashed on this Venezuelan economy? 
What can people do once he is gone?
    Mr. Abrams. There are a number of plans. There is a thing 
called Plan Puesta that the National Assembly has. Our own 
embassy has worked on a plan. And there will be, I should say, 
unquestionably, World Bank and IMF plans that will involve 
billions of dollars in funds to reconstruct the economy of 
Venezuela.
    The great thing in this case is that this is not 
fundamentally a bankrupt country. It is a country with this 
incredible resource of petroleum, the greatest in the world.
    So I think you will find that with a change of leadership 
and a change of economic policy, that there will be lots of 
people who are ready to invest, and I think the World Bank and 
the IMF in particular will be ready to help start that engine.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Green. Mr. Chairman, may I just add a comment onto my 
friend's response?
    I think the other aspect of this that makes Venezuela 
different than some of the other challenges that we take on: 
the Venezuela diaspora are talented, educated, absolutely 
devoted to Venezuela. When they return home, and I believe that 
they will, they will provide a surge of energy into that 
economy that will greatly mobilize the rebuilding. This is a 
wonderful--there is a generation of leaders who are just 
waiting for the day. I think as we partner with them, we will 
see great results.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Rubio. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman. And let me thank 
my colleagues on the subcommittee for allowing me to go first.
    I just want to remark that it is rare that the Chairman and 
Ranking of the full committee and the attendance on both sides 
of the aisle that exists as this hearing takes place--I have 
been around here for a while. I have seen many hearings. 
Sometimes it is sparse, particularly when it relates to Latin 
America. I think it speaks volumes about the interest on a 
bipartisan basis of Congress on this particular issue.
    I want to pick up a moment on what Administrator Green 
said. The Venezuelan diaspora is fantastic, incredible, all the 
more reason we should give them TPS so that they are focused 
not on the concern that they may be deported to a country while 
Maduro is there where their lives are risked but focus on how 
they build a future for Venezuela. I think that speaks for 
another policy reason why Temporary Protected Status is 
eminently a good policy.
    Mr. Abrams, I understand from media reports that you have 
had at least two rounds of secret talks with Maduro's foreign 
minister, Jorge Ariaza. I am not going to ask you about the 
substance in this setting, but can you confirm that these talks 
took place?
    Mr. Abrams. Yes. They were supposed to be confidential, 
but----
    [Laughter.]
    Senator Menendez. As so many other things in Washington are 
supposed to be.
    Mr. Abrams. Yes.
    [Laughter.]
    Senator Menendez. Are you and other Administration 
officials discussing Maduro's future with the Cuban regime?
    Mr. Abrams. No.
    Senator Menendez. Have you personally, or have other 
members of the Administration, spoken to the Russian 
government?
    Mr. Abrams. I have met with the Russian ambassador.
    Senator Menendez. How about the Chinese government?
    Mr. Abrams. Not yet.
    Senator Menendez. OK. I think we need to be sending a very 
clear message: whatever investments you made in Maduro, you are 
not going to get them back under a failed state, at the end of 
the day. Your own interest, at the end of the day, is in 
allowing a democratic process to take place that can restore 
Venezuela to its full vitality, economically and otherwise, and 
I hope we are pushing that message, even with those who are 
working against us right now, and working against President 
Guaido.
    Mr. Abrams. We are, with our ambassadors, in both of those 
capitals.
    Senator Menendez. Can I get a commitment from you to come 
back sometime next week, or soon, to provide a classified 
briefing for the committee on this particular set of subjects?
    Mr. Abrams. Absolutely.
    Senator Menendez. Secondly, I would like to see the 
Administration expand its efforts to coordinate sanctions, an 
issue that will be addressed in my pending legislation. Canada 
has designated dozens of officials for targeted sanctions. 
Europe has done some targeted designations and banned arms 
sales to the Maduro regime, and there are some initial efforts 
underway in Latin America for which I think we need to help our 
allies with capacity building and how to enforce sanctions.
    But for our sanctions to have the greatest impact, as 
someone who has been the architect of many sanctions, other 
countries need to match our efforts, in this particular case 
with Venezuela debt, gold, crypto-currency, and oil.
    What concrete steps are we taking to ensure our partners 
match our sanctions?
    Mr. Abrams. This is really a diplomatic effort, and we have 
been in touch with all 24 of the countries in the EU that 
recognize Guaido, and countries in Latin America that do as 
well, to try to get them, frankly, to do more sanctions, and to 
do more visa revocations. In many cases they have not done any. 
And there are, as you know, a number of officials in the Maduro 
regime who have sent their families abroad. So we have said to 
those countries, for example, why allow your country to be a 
playground for regime officials and their families? We are 
working on that.
    Senator Menendez. Well, I hope we will focus in those 
categories that I mentioned, because we just had a group of 
European parliamentarians here. They asked me about Venezuela. 
They were in concert with their countries in supporting 
President Guaido, and I urged them that they should engage in 
the sanctions effort if they want to internationalize an effort 
to try to create a peaceful transition in Venezuela.
    Now, Maduro and his cronies have stolen billions of dollars 
from the Venezuelan people. What steps is the Administration 
willing to take to return stolen assets to the Venezuelan 
people, separate from what we are doing with oil revenues? 
Should the U.S. or other international stakeholders contemplate 
setting up a fund to hold assets stolen from the Venezuelan 
people?
    Mr. Abrams. I think that is a very good idea. The first 
step is to freeze it; that is, it will not be there if Maduro 
can get his hands on it. We have taken a lot of steps with 
government. We all know about the Bank of England freezing the 
gold. We have approached a lot of other governments. We 
approached several more yesterday, mentioning to those 
governments named banks and asking them to make sure that 
Venezuelan peoples assets are frozen so that they cannot be 
stolen by the regime.
    Senator Menendez. Something I intend to do in my 
legislation. I would love to work with the Administration to 
work on coordinating that.
    Finally, Administrator Green, I understand we have provided 
approximately $195 million in aid to Venezuela and hosting 
countries. Given that U.S. sanctions are denying the Maduro 
regime $15 to $25 million in export revenues per day, I think 
it is safe to say that the U.S. and the international community 
need to do more. I am contemplating in my legislation $400 to 
$500 million in humanitarian aid. Do you think that is a 
reasonable figure?
    Mr. Green. I think it is a start, to be honest. In terms of 
what the humanitarian needs are, as you know, Venezuela in some 
ways is a black box. We have been working with IOM and others 
to begin to analyze and take a look at what that is, also 
taking a look at what the down payments are on such things as 
electoral support for free, fair, credible elections, and this 
is obviously something, as we know from the number of nations 
that have recognized Guaido, that needs to be a multinational 
effort.
    Senator Menendez. Well, since that is the case--two last 
points--why have we not convened a donors conference to bring 
about the preparations for what is necessary to deal with both 
the humanitarian disaster and then eventually the 
reconstruction? And secondly, why do we not purchase goods from 
Colombia, for example? It is a two-way street. We will help the 
Venezuelans. We will also strengthen Colombia and help them as 
they are helping Venezuela and us in this effort. Is that not 
something that we should be pursuing?
    Mr. Green. In the early days after my colleague was named, 
there was an informal donors conference. I agree with you, I 
think it is a good idea to have a broader, more formal donors 
conference. I think that is a great way not only of pulling 
together resources but making very clear that the world stands 
behind the future Venezuela, a democratic future.
    And in terms of purchasing local, we are doing some of 
that, and I want to keep doing more of that. I agree with you 
in the way that you are characterizing it. First off, it is an 
effective and efficient way for us to get assistance more close 
to the target. But secondly, it does provide some economic 
support and stimulus for those communities near the Venezuelan 
border, and that, of course, is a good thing as well.
    Mr. Abrams. Could I just add, Senator? There was on 
February 14th a conference at the OAS in which a number of 
particularly European countries announced pledges. So we have 
taken step one, but as Administrator Green says, we need to do 
a more formal effort.
    Senator Rubio. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Mr. Abrams, Ambassador Green, for your service. 
I commend you for the work that you are doing on this 
incredibly important humanitarian and leadership example.
    The illegitimate Maduro regime has shown a depraved 
indifference to human life, to the human condition, to the 
people of Venezuela, to the Venezuelan nation. But I sense a 
great deal of energy from the people who are in this room for 
President Guaido and the opportunities ahead for a future in 
Venezuela that Maduro has deprived and taken from the people.
    So there is obviously more that Congress can do, obviously 
more that Congress must do. Obviously, Congress will do more. 
But the full faith and power and might of the United States 
behind the people of Venezuela in this effort I think is 
incredible. Fifty-four nations around the globe gathered 
together in this effort. We obviously need more. We need more 
nations to do more, to step up, the donors that Senator 
Menendez talked about, donor nations that Senator Menendez 
talked about, the sanctions, the efforts to strongly condemn, 
to expel, to take and deprive this regime of the funds that it 
is using to continue its atrocities against its own people.
    What more can we do as a Congress to encourage other 
nations to join this coalition?
    Mr. Abrams. Maybe this is undiplomatic, but I think there 
are a number of nations, some in the Caribbean and a couple in 
Europe, that have not yet recognized Juan Guaido. I think, 
actually, if you, if this committee talked to the ambassadors 
of those nations, it does not happen every day, and I think 
that your conversations, your pressure would immediately get 
telegraphed back to those capitals and could make a difference.
    Senator Gardner. Ambassador?
    Mr. Green. Quite frankly, this hearing, and I think having 
more hearings like this, and congressional visits down to some 
of the nations that, as Mr. Abrams pointed to, are perhaps on 
the fence and need to do more. I think the show of clear 
bipartisan support is essential to make it very clear this is 
not about one administration, one U.S. administration, but this 
is the position of the American people, over and over again, 
everywhere you can.
    Senator Gardner. And I hope that as people are listening to 
this hearing, as people read the transcript, they know there is 
no sideline to sit on, to stand on, that this is a call for 
action, this is a call for help, this is a call for recognition 
for the people of Venezuela and the legitimate regime that will 
come, and the Interim President Guaido.
    You mentioned, Mr. Abrams, Russia and Cuba. Could you talk 
a little more about China and their role, their interests, what 
they are doing right now in Venezuela?
    Mr. Abrams. China has lent a lot of money to the Maduro 
regime. In the United Nations, we did see them twice join the 
Russians in vetoes. I had hoped that they might move to 
abstaining, but they have not. And we have made the argument, 
as Senator Menendez said, that they are not going to get their 
money back from a bankrupt Venezuela. They are only going to 
get it back from a Venezuela that is prosperous.
    They have differentiated themselves from the Russians, I 
guess I would say, rhetorically in that the Russians are using 
really Cold War rhetoric about American imperialism and 
colonialism and so forth. The Chinese seem to view this more as 
a commercial proposition: they want their money back. So we 
continue to push them to make what seems to us the only logical 
leap here, that then you should be in favor of steps that will 
bring Venezuela back to prosperity.
    Senator Gardner. Thank you.
    Ambassador Green, is there anything you want to add to 
that?
    Mr. Green. Well, I certainly agree with everything that my 
colleague has said. Again, I think what we need to do over and 
over again is make clear what our purpose is. Our purpose is to 
restore democracy. It is to give the people of Venezuela the 
chance to choose their own future, and that is what we seek to 
do. And, of course, that is a very different model and a very 
different approach from China, Russia, Cuba, and others.
    Senator Gardner. Thank you.
    Mr. Abrams, you mentioned that the talks were supposed to 
be in confidence, or at least not be discussed. But I am 
reminded of a saying that I have heard, that Washington is the 
only place where sound travels faster than light.
    [Laughter.]
    Senator Gardner. Thank you for your time in the hearing 
this morning.
    Senator Rubio. Senator Udall?
    Senator Udall. Thank you, Mr. Chairman and the Ranking 
Member, for these hearings. And thank you to the witnesses for 
being here.
    There is no doubt that the Maduro regime has caused 
widespread misery and suffering in Venezuela, and his followers 
are leading the country down the path of more violence and 
repression of the Venezuelan people. The United States should 
work with its partners in the region to restore democratic 
order and to reduce the threat of increased violence in 
Venezuela and throughout the region.
    However, I am mindful of the long history of U.S. 
interventions in the region, and that history is part of the 
historical memory of Latin America as well. U.S. sanctions have 
given Maduro, and Chavez before him, an easy scapegoat for 
their own failures. They blame their people's suffering on 
``Yankees.'' Now the President of the United States, some 
members of Congress and others are issuing veiled threats of 
U.S. military intervention and regime change by force. Shannon 
O'Neil, a Council on Foreign Relations expert on Latin America 
and a friend of this committee and a witness before this 
committee, wrote about this regarding the prospect of military 
intervention.
    She says, ``Venezuela is not Granada or Panama, the two 
Latin American countries invaded by the U.S. during the closing 
days of the Cold War. Instead, it is twice the size of Iraq 
with only a slightly smaller population and teeters on the 
verge of chaos. Any invasion requires preparations on a similar 
scale, meaning a 100,000-plus force. U.S. troops are unlikely 
to be welcomed. A February poll shows a majority of 
Venezuelans, including a plurality of those in Venezuela's 
opposition, oppose an invasion. A U.S. military presence would 
play into and would at least, in part, validate Maduro's loudly 
proclaimed imperialist conspiracies.'' I believe that on the 
second panel one of our witnesses, Cynthia Arnson, has come to 
a similar conclusion in terms of military intervention.
    Do either of you believe that a military solution led by 
the United States is a solution to this crisis?
    Mr. Abrams. It is certainly not desirable, and it is not 
the path the Administration is taking.
    Mr. Green. The best way to answer that is to say I have 
been part of absolutely no conversations whatsoever that have 
talked about military intervention.
    Senator Udall. Do you agree that any military intervention 
would need to be approved by this Congress?
    Mr. Abrams. Well, now we are getting into a War Powers Act 
question and hypotheticals about what might lead to a military 
intervention, and I think I should probably not do that, 
certainly not in an open hearing.
    Senator Udall. Well, Mr. Abrams, the simple principle that 
I think people who study our Constitution understand is that 
the Congress, the Congress is the one to declare war, and that 
is basically what I am asking you about. Do you understand 
that? I understand the President's Article 2 authority in terms 
of us being threatened or having an imminent threat, but that 
is what I am asking you about. Do you agree that if we were 
going to go in there in an intervention and declare war, that 
it is the Congress that has to do that?
    Mr. Abrams. You know, I remember President Clinton's 
intervention into, say, Kosovo, and there was a big debate 
about the War Powers Act, and I am just not prepared really to 
get into that debate----
    Senator Udall. I am not debating the War Powers Act. I am 
talking about the constitutional authority of the Congress to 
be the one that declares war, determines interventions.
    Mr. Abrams. You know, you have the constitutional authority 
to declare war. You have the President's authority as Commander 
in Chief. That would be a great subject for a hearing.
    [Laughter.]
    Senator Udall. Okay, good. Well, the Chairman was here 
earlier, and I am sure the subcommittee chairman will pass that 
on, and I will try to do the same.
    Do you think that a civil war would make life better for 
the Venezuelan people, either one of you?
    Mr. Abrams. No, clearly not.
    Senator Udall. Mark?
    Mr. Green. No.
    Senator Udall. Is the State Department working with 
Treasury to help mitigate the impact of sanctions on the 
Venezuelan people, as far as you know? And in light of how the 
Maduro government has weaponized the propaganda of Yankee 
imperialism, what is your plan to counter those charges against 
the American Government and the Lima Group, who we are 
supporting?
    Mr. Abrams. We are working with Treasury. I would say we 
are especially working with USAID on the question of trying to 
make sure that the sanctions affect the regime but not the 
Venezuelan people.
    As to the broader question, I am struck by the unity that 
there really is. The history that you have mentioned has not 
prevented most of the democracies of Latin America and Europe 
in joining the United States in hemispheric and Western unity, 
as reflected in the bipartisan unity here. So the regime's 
arguments about gringos and Yankee imperialism and so forth 
are, at this point in 2019, really falling without much impact.
    Senator Udall. I would just like to quote, because I may 
not be here for keeping the military option on the table and 
all of that kind of thing, and keeping them off balance. The 
witness in the next panel says, ``But this threat has eroded 
the consensus between the United States, the hemispheric 
democracies, and the countries of Europe over how to approach 
the Venezuelan crisis,'' and that is why I am asking these 
questions, to try to get to the heart of where the 
Administration is really at.
    I mean, on the one hand we see a remarkable thing here 
where the President is the most aggressive in terms of using 
force, and yet many of the Administration officials that appear 
before us in a variety of contexts in different committees have 
a totally different line. So it is a little bit of a very 
difficult situation for us to kind of come to grips with this. 
We cannot call him down here in front of the committee, but we 
can get you down here. So there is a stark difference that is 
there.
    Thank you, Mr. Chairman. I appreciate the courtesies of 
running over a little bit.
    Senator Rubio. Mr. Abrams, have any of our international 
partners told us that they do not want to work with us until 
the President stops saying all options are on the table?
    Mr. Abrams. No, none have.
    Senator Rubio. And are there any armed elements of the 
opposition? Is there an armed opposition group?
    Mr. Abrams. There is not. The opposition--it is not really 
opposition anymore. Let's say the legitimate leadership under 
President Guaido wants exclusively peaceful change.
    Senator Rubio. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both, first of all, for being here today and for 
what you are doing in this very difficult situation.
    I just want to follow up on Senator Udall's question, just 
to be very clear, because I did not hear either of you answer 
it in this way. Are either of you aware of any plans within the 
Administration for any military action in Venezuela? Mr. 
Abrams?
    Mr. Abrams. No, not in the sense you mean it. I mean, there 
are always contingency plans. I do not know how much to get 
into this in an open hearing, but, for example, for the 
protection of every single U.S. embassy around the world, there 
are always such plans. But we are not pursuing that path.
    Senator Shaheen. Mr. Green?
    Mr. Green. I am not.
    Senator Shaheen. Thank you.
    The discussion this morning has been very eloquent about 
the terrible tragedy that is happening in Venezuela and about 
the humanitarian disaster there. But the status of women has 
not been mentioned, and I think it is important to do that, 
because there are more reports coming out about the violence 
that women are facing in Venezuela, that women are facing as 
they cross the border into Colombia. The International Refugee 
Committee said that increasing numbers of women and children 
are fleeing and that as they are fleeing they are facing a 
unique set of risks around sexual assault, kidnapping, 
harassment; that many women have turned to sex work to support 
their families.
    So I wonder, Mr. Green, if you could talk about how U.S. 
assistance is being directed towards the women and children 
specifically who are being affected.
    Mr. Green. Thank you for the question, and I will say in my 
most recent trip down to Cucuta and the centers that I visited, 
it was a disproportionately large number of young mothers who 
were there. That was very, very clear, and they felt special 
pain, not only pain for what they are going through but what 
they are going through for their families. It really was 
heartbreaking, to be honest.
    In terms of specifics and targeted assistance in that way, 
part of it is the hygiene supplies that we pre-position and 
supply. But secondly, you are pointing to something that is 
very important but I do not think very well covered, and that 
is these poor people, as they flee tyranny and hunger and so on 
and so forth, they are very easily exploited.
    So we are working in those communities along the border and 
in other places where we know Venezuelans are fleeing to, to 
try to reinforce and provide some level of protection and 
counseling and places for them to go. It is just one more dark, 
gloomy part of this terrible crisis.
    Mr. Abrams. If I could add, Senator, I have the TIP report 
with me. Venezuela is a Tier 3 country. It does not meet 
minimum standards, and the report itself says, ``Venezuela is a 
source and destination country for men, women, and children 
subjected to sex trafficking and forced labor.'' So it is a 
real problem.
    Senator Shaheen. Thank you. It is just awful, and it 
reflects again the fact that in conflict areas, that it is 
women and children who usually bear the brunt of that conflict, 
and this is another example of that and I think another reason 
why it is so important that legislation like the Women, Peace, 
and Security Act that asks that women be at the table when we 
are negotiating an end to conflicts is so important, because we 
know that that means that whatever is negotiated lasts longer, 
and it also means that there is a lower likelihood that women 
will continue to be placed in positions where they are the 
victims of so many of these issues, sex trafficking, sexual 
assault, all of those concerns.
    So again, thank you both very much for what you are doing.
    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and to the witnesses 
for very helpful testimony.
    I want to just acknowledge and applaud the release of a 
Virginia journalist, Cody Weddle, who is from Meadowview, 
Virginia, a Virginia Tech alumnus, who has been in Venezuela 
reporting independently there for a number of years, who was 
arrested and interrogated and released overnight. That is good 
news.
    I want to follow up on comments of my colleagues on this 
side of the aisle about military threat. Having lived in Latin 
America, this notion of blaming problems on Uncle Sam, on 
imperialist Yankees, is very, very serious, and the President's 
comments about military threat I think are a horrible idea. I 
actually think generally the strategy of sanctions, the work 
that you have done to cobble together the global coalition I 
think is very, very good. I think it really creates problems, 
though, if the message gets mixed with a potential military 
threat.
    I have the same concern Senator Udall raised about who it 
is that initiates war. It is Congress, not the President, 
unless there is an imminent threat on the United States, I 
believe. But more than that, I think loose talk about military 
action actually cements and emboldens dictators. They want to 
be able to blame their problems on Uncle Sam, on America, on 
the West. They would love to be able to blame it on somebody 
else. As they are running the economy into the ground, whether 
it is Putin in Russia or Maduro in Venezuela, they would love 
to be able to blame their own mismanagement and failings on 
others. And any loose talk about military action brings up this 
whole history of U.S. military intervention. It gives Maduro 
the ability to claim that the U.S. is interested in petroleum 
or whatever else, and I think it is just really important that 
we stress what our interest is.
    The only interest we have is peace, liberty, and democracy 
for the Venezuelan people. That is it.
    [Spanish language spoken.]
    Senator Kaine. Not military, not oil. There is nothing we 
want for ourselves. We only want peace, liberty, and democracy 
for the Venezuelan people. And I think we need to stress that 
very clearly.
    I want to ask you about you referenced briefly the OAS, and 
I would kind of like to dig into this, because I think you gave 
us maybe a good suggestion.
    I am troubled by the number of Caribbean nations that have 
not been supportive of this global coalition, and I read that 
as a challenge, largely kind of petroleum politics, that 
Venezuela has used petroleum reserves to purchase their 
loyalty. You can kind of understand that in realpolitik. I 
think dialogue is important, and there is an awful lot that we 
can offer, too, to convince some of those nations to hopefully 
join the global coalition in support of the interim government 
and a constitutionally dictated transition to elections and a 
new government.
    So dialogue with the nations that we are talking about. 
What are other strategies that you might suggest for us, or 
what is the Administration pursuing in terms of dialogue with 
nations, especially those in the OAS, to make sure that there 
is more of a consensus within this important hemispheric 
organization to help us out?
    Mr. Abrams. We do have something approaching a consensus on 
the Latin American side, not on the Caribbean side, and it has 
been disappointing, because all those countries are 
democracies, and I think it is for the reasons that you state, 
debt especially, and in some cases joint ventures with pedevesa 
over the years.
    We continue in all those capitals to push them. The 
principal deputy in the Latin American Bureau is in the eastern 
Caribbean right now personally pressing leadership to see if we 
can move them.
    Again, I would say hearing from members of this committee, 
talking to their ambassadors so they can bring that home would 
be useful, and we are working with them. Treasury has been 
working with them and the Energy Department to tell us what the 
problem is, tell us what you are afraid of, and maybe we can 
help you.
    In the case, for example, of Jamaica recently, they 
undertook a few transactions that would reduce their ties, let 
us say, to pedevesa in a very useful way, so they get out from 
under.
    Senator Kaine. Mr. Green?
    Mr. Green. Thank you, Senator. I think one of the ways that 
we do this is to make sure that our humanitarian foot is 
forward. So in the case, for example, of Trinidad and Tobago, 
we have provided $1.6 million in assistance to help identify 
the needs of the Venezuelans who have come to the islands 
looking for ways to tackle the issues of crime and violence and 
human trafficking, and to try to lower the burden, quite 
frankly, that they are feeling. So it is something that we are 
doing regionally.
    I will tell you this: I think the impact of the Venezuelan 
flight in the Caribbean is something that people do not quite 
appreciate. Last year at the Summit of the Americas we were 
beginning to hear it, and that was now many months ago. I am 
sure the numbers have gone way up. It is something where we can 
reach out, we can provide some support, and I think that would 
be very helpful.
    Senator Kaine. That is very helpful. Thank you.
    Thanks, Mr. Chair.
    Senator Rubio. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, good morning. Thank you for your good work.
    Globally, gold has become a key way that bad actors conduct 
illicit financial activities. In Venezuela, the gold trade is 
Maduro's best and perhaps his last lifeline.
    In 2018 alone, Venezuela exported $900 million worth of 
gold to Turkey. According to the U.S. Treasury Department, 
Turkey has been making large purchases of gold, almost 
certainly including illicit purchases from Venezuela.
    To cut off this lifeline, I have introduced a bill, along 
with Chairman Rubio, that says if a country or bank conducts 
precious metal transactions that are subject to sanctions, as 
moving gold from Venezuela or Iran would be, that the Secretary 
of the Treasury can take those transactions into account when 
deciding about a broader conclusion that such country or bank 
shall be designated as a jurisdiction of primary money 
laundering concern.
    Mr. Abrams, can you please describe the role that illicit 
gold and precious metal transactions plays in sustaining the 
Maduro regime?
    Mr. Abrams. Thanks, Senator. It is critical. What we did on 
pedevesa cut off a lot of cash. The oil they were giving to 
Russia and China was to offset previous debt. They were not 
getting cash. So they lose that cash. Where can they find cash 
today? Gold is one of the very few places, and it is the 
biggest one.
    Senator Cruz. I understand that the Administration is in 
possession of a list of Turkish entities that are moving gold 
for Venezuela based on publicly sourced information. Can you 
outline how the Administration intends to approach these and 
other bad actors?
    Mr. Abrams. First, we talk to the governments in question 
and in some cases the enterprises in question, in almost every 
case, to say you ought to stop doing this. You ought to stop 
doing it because it is wrong, and you ought to stop doing it 
because there are going to be sanctions, and we have had some 
success in other areas of the world in getting companies to say 
okay, we do not want the risk of sanctions, we will stop. We 
have not had that success in the case of gold sales in the 
Middle East more generally.
    Senator Cruz. Mr. Green, what initiatives can USAID 
encourage in Venezuela or other partners in the region to deter 
Maduro's illicit mining and trade of gold and to safeguard the 
supply chain for Venezuelans?
    Mr. Green. Thank you, Senator. Actually, in countries like 
Colombia and Peru, we have well-developed, successful, licit 
mining programs which use environmentally-sound methods for 
mining. Secondly, because it is licit, it actually provides a 
revenue source that can be reinvested in the communities and 
creates good-paying jobs and chokes off the source of illicit 
gold revenues that we know that narcos and criminal gangs too 
often use.
    So I would propose in that day after in Venezuela that we 
ramp up investments like this. This is a way of creating very 
good-paying jobs around which you can raise families and build 
communities.
    Senator Cruz. Thank you.
    Maduro's regime has been holding six Citgo employees, 
including five U.S. citizens who live in Texas, for over a year 
now. The Citgo executives have been detained on baseless 
charges and subjected to harsh imprisonment. It is well past 
time to secure their release, and it is my hope that the new 
Venezuelan government will work with the U.S. to swiftly ensure 
their safe return.
    Mr. Abrams, is the Administration in discussions with 
either the Guaido administration or the Maduro regime on the 
imprisonment of the Citgo executives who are U.S. dual 
nationals? And can you describe what efforts are being made to 
secure their release?
    Mr. Abrams. As you know, Senator, we are unable to get 
consular access to them. The position of the regime is because 
they are also Venezuelan citizens, you do not get to see them. 
So we have not been able to do that.
    It is also true that the church in Venezuela has asked to 
see them on a pastoral visit--refused, no.
    We are in touch with the families. We keep pressing the 
regime because there are two court orders for their release, 
which the regime simply refuses to implement.
    So we keep pressing. We do keep raising it. I am absolutely 
confident that at the point at which Interim President Guaido 
takes over, their release will be very rapid.
    Senator Cruz. Well, good, and I would encourage you to 
continue to make that a high priority.
    A final question for both of you. This is a pivotal time in 
Venezuela's history. It is a time of enormous opportunity, but 
also enormous risk. There are some 3,000 generals in Venezuela. 
Each of those generals now has to decide with whom he stands, 
with the illegitimate and oppressive Maduro regime or with the 
legitimate and recognized Guaido government.
    What do both of you believe could be effective, both 
carrots and sticks, for those 3,000 generals to encourage them 
to stand on the right side of history with the people of 
Venezuela and not to support a dictator on his way out the 
door?
    Mr. Abrams. I would say there are two parts to that, the 
Venezuelan part and the American part. The legitimate National 
Assembly has passed a transition law that speaks of amnesty, 
and there are further debates in the National Assembly in 
Venezuela about saying more about that, being more detailed 
about what an amnesty would consist of.
    On our part, we have made it very clear that sanctions can 
be removed, visa revocations can be reversed, and visas can be 
granted. For those who are actually indicted, that is a 
different story, indicted or convicted. They should have their 
lawyers deal with the Department of Justice. But from the 
Treasury and State point of view, these things are reversible, 
and we are trying to make the argument, and more importantly 
President Guaido and the National Assembly are making the 
argument, that they are open to those who are willing to 
change.
    Senator Cruz. Thank you.
    Senator Rubio. I want to thank both of you for being here 
today. We want to get to our second panel. We appreciate the 
work you are doing and the time you have given us this morning, 
and we thank you again for being with us.
    While we transition, I am going to go ahead and present our 
second panel. I know we have a vote in about 45 minutes.
    I would strongly encourage our witnesses--we have your 
written testimony. I think you both are veterans of appearing 
in the committee. These are our non-government experts. I will 
introduce them as they take their seats here quickly.
    The first is Mr. Eric Farnsworth, the Vice President of the 
Council of the Americas; and Dr. Cynthia Arnson, who is the 
Director of the Wilson Center's Latin America Program.
    I ask those who are here if you would take your seats or 
transition out because I want to make sure whoever stays gets 
their questions in. I want to make sure our testimony is in.
    Dr. Arnson, we will start with you, if that is okay. Are 
you ready?
    Thank you both for being here.

    STATEMENT OF CYNTHIA J. ARNSON, DIRECTOR, LATIN AMERICA 
  PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, 
                         WASHINGTON, DC

    Dr. Arnson. Great. Thank you, Chairman Rubio, Ranking 
Member Cardin, members of the subcommittee, Senator Menendez, 
who is joining us from Senate Foreign Relations. It is a 
privilege to be here.
    I think both sides of the aisle have adequately described 
the disaster, humanitarian and economic and political, that 
Venezuela has come to, so I will skip over that part of my 
testimony and instead focus on the options for U.S. policy, 
both their advantages and their risks.
    First, sanctions. Building on the actions that started 
under the Obama Administration and now intensified by the Trump 
Administration, there has been a dramatic escalation in the 
range of individual, financial, and now petroleum sanctions on 
Venezuela. The purpose is obviously to increase substantially 
and unacceptably the political, economic, and personal costs of 
the status quo such that people who support the regime 
currently might be impelled to break with it.
    It appears that the pressures are aimed at creating 
fissures in the armed forces, which, as we all know, are 
Maduro's key source of support. These divisions could emerge. 
Some have already, small ones in the leadership, or become more 
pronounced, especially as the economic sanctions are in place 
for a longer period of time and have a greater impact.
    However, there is no guarantee that even the most punishing 
sanctions will serve to divide the military hierarchy. There 
is, in fact, a risk that these sanctions, as has been discussed 
by Senator Kaine a moment ago, will contribute to greater 
internal coherence of the regime, a kind of circling of the 
wagons against foreign efforts.
    There is also the devastating human cost of the oil 
sanctions.
    The issue of humanitarian aid needs to be depoliticized. It 
must adhere to the principles of neutrality, impartiality, 
independence, and I believe that the United Nations, many of 
its agencies--UNICEF, the World Health Organization--and the 
local Red Cross, the International Committee of the Red Cross, 
and other relief organizations on the ground in Venezuela are 
best positioned to provide expanded assistance.
    Many of you have made reference to the impact of the flow 
of Venezuelan refugees on the countries of the region. I will 
not go over the numbers. We just heard from USAID Administrator 
Mark Green. Between USAID and the State Department's Bureau of 
Population, Refugees and Migration, the United States has 
pledged a significant amount of assistance, but it is still a 
fraction of the $738 million that is called for in 2019 alone, 
called for by the U.N. Regional Refugee and Migrant Response 
Plan, a joint program of the United Nations' High Commission 
for Refugees and the International Organization of Migration.
    Colombia alone, according to that report, requires $315 
million, which is more than double what the United States has 
provided to the entire region. I believe that we should put 
actions behind our words and provide resources that are 
commensurate with our capacity and our stated foreign policy 
objectives.
    I commend Senator Rubio, Senator Menendez, people on both 
sides of the aisle who have encouraged the Administration to 
grant Temporary Protected Status to Venezuelans in the United 
States, but this should be coupled with an expedited review of 
asylum claims. Another option is to raise the highly 
restrictive cap on refugee admissions to the United States, 
which in 2019 hit an historic low.
    I will not go over the issue of military intervention. My 
remarks have already been quoted by Senator Udall. I think 
continued talk of a military option, as much as it is useful in 
keeping the regime off balance, is irresponsible, would spark a 
regional war and be an incentive for Colombian guerillas from 
the ELN, the FARC, those who refuse to demobilize, and perhaps 
even some of those who did demobilize, to join up arms against 
that.
    It is possible that the combination of all of the 
pressures--diplomatic, economic--that the United States and the 
international community have brought to bear can bring about a 
change of government in Venezuela, or even the collapse of the 
authoritarian regime. I believe, however, that it is also 
possible that it will survive, much as Assad's Syria has 
survived, becoming even more repressive in its determination to 
cling to power, expelling more of its citizens, and turning 
further to allies such as Russia, Turkey, Cuba, as it seeks 
survival.
    I share the goal that many have stated, that policy of the 
United States and of the international community should be to 
create the conditions for a free, fair election in Venezuela in 
which the opposition can openly compete without disadvantage 
and take office should it win. That goal will require 
institutional reform, especially of the Electoral Council. It 
probably also requires international observation and 
supervision.
    I do not believe it requires the end of Chavismo as a 
political force. I was heartened to hear people reiterate that 
concept. And it does foresee its integration into a functioning 
and pluralistic democracy.
    I do not believe that a transition requires the immediate 
purging of the military, or even the extradition of Venezuelan 
officials indicted by the United States to face justice in this 
country. These are not questions about which there is any 
ambivalence in the moral or ethical sense. These are strictly 
practical considerations, how one provides an off ramp for 
those who are currently aligned with the regime to break with 
the current government.
    Negotiations in Venezuela have acquired a very bad name. 
They have been tried for many years. The Maduro regime has used 
them to buy time, divide the opposition, and avoid concessions. 
I would put on the table now the question as to whether a 
hurting stalemate, a concept that is mostly used in conflict 
resolution, is at hand. I believe that it is, and I believe 
that one possible vehicle is the European Union-led, with Latin 
American participation, international Contact Group, which does 
not talk about negotiations. It talks about creating the 
conditions for a free and fair election as the subject of talks 
with the government.
    Thank you very much.
    [The prepared statement of Dr. Arnson follows:]

                Prepared Statement of Cynthia J. Arnson

    Chairman Rubio, Ranking Member Cardin, and distinguished members of 
the Subcommittee, It is my privilege to address you today on the crisis 
in Venezuela and options for U.S. policy.\1\
---------------------------------------------------------------------------
    \1\ The views expressed in this testimony are the author's own and 
do not necessarily reflect the views of the Wilson Center. I am 
grateful to my colleagues Benjamin Gedan, Rob Litwak, Catalina Casas, 
and Madalyn Medrano for their insights and research support.
---------------------------------------------------------------------------
    The dimensions of the governance, economic, and humanitarian crisis 
in Venezuela are well documented and well known. Equally well known are 
the surprising and heady events that have taken place in Venezuela 
since a heretofore unknown politician, Juan Guaido, became interim 
president on January 23, 2019, inspiring the internal opposition and 
galvanizing a broad international response. As of March 5, 2019, fifty-
four countries of the Western Hemisphere, Europe, and Asia have 
recognized Mr. Guaido as Venezuela's legitimate president, rejecting 
the results of a deeply flawed election held in May 2018 in which 
President Nicolas Maduro was ratified for a second term. A February 
2019 poll by the Venezuelan polling firm Datanalisis has put Guaido's 
support at 61 percent of the population, compared to 14 percent for 
Maduro, a historic low. The combination of domestic and international 
pressures has raised hopes as perhaps never before that Venezuela's 
experiment with ``Twenty-First Century Socialism'' will end, giving way 
to democratic change.
    Yet there are bumps on the road. Both Maduro and Guaido appear to 
believe that time is on their side. Despite hundreds of defections of 
army and National Guard foot soldiers, the Venezuelan armed forces and 
especially its senior leadership have remained loyal to Maduro. For how 
long will that continue? Will crippling U.S. sanctions, now extended to 
Venezuela's all-important oil industry, divide chavismo? Or will 
sanctions rally even disaffected chavistas to swallow their criticisms 
and oppose outside ``aggression?'' As sanctions deepen an already 
catastrophic humanitarian situation, will a desperate public lose faith 
in Guaido's and the opposition's ability to deliver relief from their 
crushing personal circumstances? Will the Maduro administration find a 
way to evade the sanctions, especially by finding other customers for 
Venezuelan oil? How can the United States and others in the 
international community best position themselves to enhance the 
possibilities for a democratic transition that avoids or minimizes the 
potential for political violence or the use of force?
                      the dimensions of the crisis
    President Nicolas Maduro presided over a skewed electoral process 
in May 2018, in which the government prohibited the principal 
opposition candidates from running and other practices affected the 
election's fairness and independence.\2\
---------------------------------------------------------------------------
    \2\ An especially pernicious tactic was the placing of polling 
stations next to sites where Venezuelans had to renew their 
``Fatherland Card'' (Carnet de la Patria), used to allot government-
subsidized bags of food. See Michael Penfold, ``Food, Technology, and 
Authoritarianism in Venezuela's Elections,'' April 18, 2018, https://
www.wilsoncenter.org/publication/food-technology-and-authoritarianism-
venezuelas-elections. A resolution passed by the Organization of 
American States on June 5, 2018, said that the Presidential election 
``lack[ed] legitimacy'' and did not comply with international 
standards. The resolution passed, 19-4, with 11 abstentions. See http:/
/www.oas.org/en/media--center/press--release.asp?sCodigo=S-32/18.
---------------------------------------------------------------------------
    Over the last several years, and especially since a wave of 
demonstrations in 2014 challenged his rule, Maduro has deployed a full 
range of repressive tactics to quell dissent and eliminate challenges 
to his authority. Government troops have killed hundreds of unarmed 
demonstrators, while under the guise of fighting crime, hundreds more 
have been executed in poor neighborhoods, many of them by a police unit 
loyal to Maduro, the Fuerzas de Acciones Especiales (Special Actions 
Forces, FAES), created in 2017. According to the leading human rights 
group Foro Penal, the number of political prisoners stood at 288 in 
December 2018. Torture of prisoners is commonplace, including--and 
perhaps especially--of members of the military accused of plotting 
against the government.\3\ Armed pro-government paramilitaries known as 
colectivos have terrorized government opponents, most recently and 
visibly by opening fire alongside members of the National Guard on 
activists attempting to deliver humanitarian aid to Venezuela from 
Colombian and Brazilian territory in late February 2019. Street crime 
is rampant. Venezuela's Violence Observatory reports that the country's 
rate of homicides in 2018 was the highest in Latin America, exceeding 
even the countries of Central America's Northern Triangle.
---------------------------------------------------------------------------
    \3\ See Human Rights Watch, ``Venezuela: Suspected Plotters 
Tortured,'' January 0, 2019, https://www.hrw.org/news/2019/01/09/
venezuela-suspected-plotters-tortured.
---------------------------------------------------------------------------
    Venezuela's recent economic decline is breathtaking. Gross Domestic 
Product has shrunk by nearly half in the last 5 years, a period roughly 
corresponding to the date of Maduro's 2013 inauguration. According to 
oil industry sources, the output of the country's State-run oil 
industry, which provides over 90 percent of Venezuela's foreign 
exchange, has dropped by two-thirds, from approximately 3.1 million 
barrels per day (bpd) in 1998 when President Hugo Chavez was first 
elected to 1.15 million bpd in December 2018. The International 
Monetary Fund estimates that inflation in 2018 reached 1 million 
percent; and if that figure seems incomprehensible, the IMF predicts 
that inflation will reach a staggering 10 million percent this year. A 
recent survey by three of Venezuela's leading universities documented 
that fully 87 percent of the Venezuelan population live in poverty (up 
from 48.4 percent in 2014). This is not, as the Venezuelan government 
contends, the result of sanctions or foreign hostility, but the product 
of chronic mismanagement, staggering levels of corruption, and 
relentless hostility to the private sector, reflected in the 
expropriation of thousands of private companies over the last two 
decades. Adding to the misery of ordinary Venezuelans is the collapse 
of the health care system. The World Health Organization and Pan-
American Health Organization have documented the extent to which 
hospitals and clinics lack the basic medicines and supplies to provide 
even a minimum level of care, and once-eradicated diseases such as 
measles, tuberculosis, diphtheria are on the rise--and are being 
exported to Venezuela's neighbors through migratory flows.
    In the face of political repression and economic calamity, as of 
February 2019 3.4 million Venezuelans had fled their homes in search of 
basic survival. The overwhelming majority have left since 2015. 
According to the United Nations, that is an average of 5,000 a day. In 
the words of UN-IOM Joint Special Representative of Venezuelan Refugees 
and Migrants Eduardo Stein, the Venezuelan migrant flows constitute 
``the largest displacement of people in the history of Latin America.'' 
\4\ Colombia alone has over 1.1 million Venezuelans, followed by Peru 
(506,000), Chile (288,000), Ecuador (221,000), Argentina (130,000), and 
Brazil (96,000). The absolute numbers that have fled to countries of 
the Caribbean--Curacao, Aruba, Trinidad and Tobago, the Dominican 
Republic, and others--are smaller, but constitute a much larger 
percentage of the island nations' population overall.
---------------------------------------------------------------------------
    \4\ Coordination Platform for Refugees and Migrants from Venezuela, 
Regional Refugee and Migrant Response Plan, January--December 2019.
---------------------------------------------------------------------------
                        options for u.s. policy
    Over the past several years, and building on initial actions taken 
by the Obama Administration, the Trump administration has dramatically 
escalated a range of sanctions--individual, financial, and most 
recently on the oil sector--in an effort to punish the anti-democratic 
and corrupt behavior of senior Venezuelan officials and to impose 
hardships that could lead to regime change. Over the last two 
administration, the most senior levels of the U.S. Government have also 
worked to forge a hemispheric consensus in favor of strong multilateral 
action against the Maduro government. Latin American and some Caribbean 
countries themselves, deeply affected by the flood of Venezuelan 
refugees, have acted through the Lima Group \5\ and the Organization of 
American States to condemn the actions of the Maduro government and 
call for free elections, respect for human rights, and the delivery of 
humanitarian aid. Countries of the European Union have added their 
voices in support of these objectives. The Venezuelan opposition and 
Juan Guaido in particular have called on the international community to 
intensify pressure on the Maduro administration, join the United States 
in financial and other sanctions, and help deliver humanitarian aid.
---------------------------------------------------------------------------
    \5\ The Lima Group member States are Argentina, Brazil, Canada 
Chile, Colombia, Costa Rica, Ecuador, Guatemala, Honduras, Panama, 
Paraguay, and Peru.
---------------------------------------------------------------------------
    What follows is a discussion of the benefits and risks of various 
approaches available to the United States and others in the 
international community in support of a democratic outcome in 
Venezuela.
                               sanctions
    The purpose of sanctions is to increase substantially--and 
unacceptably--the political, economic, and personal costs of the status 
quo, such that supporters of the regime have reason to break with 
Maduro. The logic of sanctions is to change the calculus of core 
interest groups that keep the regime in power; sanctions are thus part 
of a strategy of coercive diplomacy aimed at modifying behavior or 
producing regime change.\6\
---------------------------------------------------------------------------
    \6\ 1ASee Robert S. Litwak, Outlier States: American Strategies to 
Change, Contain, or Engage Regimes (Washington, DC. and Baltimore: 
Woodrow Wilson Center Press and The Johns Hopkins University Press, 
2012).
---------------------------------------------------------------------------
    The literature on regime change indicates that divisions within the 
ruling elite of an authoritarian regime can make a democratic opening 
possible. In the case of Venezuela, economic pressure appears directed 
at creating fissures in the armed forces, Maduro's key source of 
support. These divisions might emerge--or become more pronounced--in 
light of the drastic economic impact of recently imposed U.S. oil 
sanctions. The effects of the oil sanctions will build over time, but 
their true political impact may not be known for many months.
    However, there is no guarantee that even the most punishing 
sanctions will serve to divide the military hierarchy. The top echelons 
of the Venezuelan armed forces are deeply involved in corruption and 
organized crime,\7\ control key sectors of the economy (the State-owned 
oil company PDVSA, the mining industry, and food distribution, among 
others) and have a great deal to lose by abandoning the regime. There 
is the risk that sanctions will contribute to greater internal 
coherence, a `circling of the wagons' against foreign efforts to topple 
the government. This appears to be the case, at least in the short run. 
For example, when Juan Guaido and international relief agencies 
attempted to deliver humanitarian aid from across the border in 
Colombia and Brazil in late February, senior members of the armed 
forces remained united in their determination to block the supplies. 
Backed by the colectivos, government troops resorted to violence, 
killing a number of people and injuring hundreds. Recent interviews 
with chavistas also provide initial anecdotal evidence that even those 
critical of the country's leadership and direction reluctantly back the 
Maduro government in the face of U.S. pressure.\8\
---------------------------------------------------------------------------
    \7\ See InSight Crime, ``Venezuela: A Mafia State?'' 2018, https://
www.insightcrime.org/wp-content/uploads/2018/05/Venezuela-a-Mafia-
State-InSight-Crime-2018.pdf.
    \8\ Ivan Briscoe, ``Will Maduro's Supporters Abandon Him?'' Foreign 
Affairs, February 25, 2019.
---------------------------------------------------------------------------
    There is also the devastating human cost of the oil sanctions, 
given the Maduro government's dependence on oil revenues to import food 
and medicine. As recommended by the Lima Group--and to mitigate the 
additional toll that sanctions will impose on already impoverished 
Venezuelans--the U.S. Government and others in the international 
community should avoid politicizing the issue of humanitarian aid. To 
be effective, humanitarian aid must adhere to the principles of 
neutrality, impartiality, and independence. United Nations agencies, 
the local Red Cross, the International Committee of the Red Cross, and 
others relief organizations on the ground in Venezuela can provide 
expanded assistance that is need-based and free of political 
objectives. In addition, the United States should consider partially 
lifting oil sanctions against Venezuela in order to permit revenues 
from the sale of oil to be used strictly for the import of essential 
food and medicine.\9\ This assistance must be distributed by a neutral 
third party in Venezuela, not the government. It also must take place 
under international supervision, to avoid the corruption that has 
plagued such programs in the past.
---------------------------------------------------------------------------
    \9\ A similar argument is made by Francisco Rodriguez, ``Why 
Venezuela needs an oil-for-food programme, Financial Times, February 
27, 2019.
---------------------------------------------------------------------------
 helping nations cope with the regional impacts of venezuela's meltdown
    The accelerated collapse of Venezuela's economy will push ever more 
Venezuelans to migrate to neighboring countries. The United Nations 
reported in February that it expects the number of refugees to reach 
5.3 million by the end of 2019, a more than 55 percent in just 1 year. 
Latin American countries have done a remarkable job in issuing 
residence permits and other documents to regularize the status of 
migrants, allowing them access public services and permission to work. 
Goodwill and generosity aside, however, the countries of the region 
simply do not have the service delivery capacity or financial resources 
to continue to address the emergency needs of such massive refugee 
flows or to absorb them on a permanent basis. All of the recipient 
nations are developing countries with their own challenges, including 
poverty, unemployment and informality, and the poor quality of 
government services such as health and education. It is only a matter 
of time before what have been up to now sporadic outbursts of violence 
and xenophobia aimed at refugees become more frequent and corrosive to 
the democratic and social fabric of Venezuela's neighbors. Given Latin 
America's overall lackluster economic performance in recent years, it 
is likely that resentment will grow among native-born populations.
    The U.S. Government, through USAID and the State Department's 
Bureau of Population, Refugees, and Migration, has pledged over $152 
million between fiscal years 2017-2019 for the Venezuela regional 
response. This is a significant amount, but still a fraction of the 
$738 million called for in 2019 in the UN's 2019 Regional Refugee and 
Migrant Response Plan. Colombia alone requires over $315 million, more 
than double what the United States has pledged to the entire region. It 
is risky in the current U.S. budget and political climate to call for 
higher levels of foreign aid. But the crisis in Venezuela has been 
elevated to a position of central concern to President Trump, the 
highest levels of his administration, and the U.S. Congress. As 
sanctions accelerate Venezuela's economic freefall, we should 
demonstrate our commitment to mitigating the additional suffering 
caused by these actions by providing resources commensurate with our 
capacity and stated foreign policy objectives.
    Leading by example also requires that we treat Venezuelans who are 
in the United States or wish to come here with the same compassion 
exhibited by Venezuela's neighbors. I commend Senator Rubio and his 
colleagues on both sides of the aisle, and in both the House and 
Senate, who have encouraged the administration to grant Temporary 
Protected Status to Venezuelans in this country. While this normalizes 
the status of Venezuelans already in the United States, it does not by 
itself provide relief to those who have yet to enter. To accommodate 
Venezuelans who are compelled by circumstances to migrate, approval of 
TPS should be coupled with the expedited review of asylum claims. 
Another alternative is to raise the highly restrictive cap on refugee 
admissions to the United States, which in 2019 hit a historic low.
                         military intervention
    Since President Trump first spoke publicly of a military option in 
August 2017, numerous senior U.S. officials have reiterated that ``all 
options are on the table.'' There is undoubtedly psychological value in 
keeping the Maduro government guessing and off-balance with respect to 
U.S. intentions. But this threat has eroded the consensus between the 
United States, hemispheric democracies, and the countries of Europe 
over how to approach the Venezuelan crisis. I personally believe that 
the likelihood of U.S. military intervention in Venezuela is low. That 
said, one should not underestimate the drastic consequences for 
regional stability should it occur. Military action would undoubtedly 
provoke an armed response from Colombia's ELN guerrillas, many of whom 
are based in Venezuelan territory where they have a significant 
presence in the illegal mining of gold.\10\ Some 1,500-2,000 members of 
Colombia's FARC guerrillas who refused to lay down their weapons 
following the 2016 peace agreement would also undoubtedly join the 
fray, as perhaps, would even some FARC members who did demobilize but 
whose lives remain precarious. The end result would be the 
regionalization of a conflict in which thousands of seasoned combatants 
come to the aid of the "Bolivarian revolution." Armed colectivos, 
estimated to number in the tens of thousands, have no battle training 
but are capable of waging a dirty, urban guerrilla war. In such 
circumstances, continued talk of a military option is nothing short of 
irresponsible.
---------------------------------------------------------------------------
    \10\ International Crisis Group, ``Gold and Grief in Venezuela's 
Violent South,'' February 28, 2019,https://www.crisisgroup.org/latin-
america-caribbean/andes/venezuela/073-gold-and-grief-venezuelas-
violent-south.
---------------------------------------------------------------------------
                is a pacted regime transition an option?
    It is possible that the combination of internal and external 
pressure on the Maduro administration that we are currently witnessing 
is sufficient to bring about a change of government or even the 
collapse of the authoritarian regime. It is also possible, however, 
that the regime will survive, becoming even more repressive in its 
determination to cling to power, expelling even more of its hungry 
citizens, and turning further to allies such as Russia (to purchase 
Venezuelan oil and provide some food and medicine) Turkey (to monetize 
Venezuelan gold), and others to mitigate the effects of U.S. sanctions. 
The role of Cuban advisers in identifying and neutralizing internal 
threats from within the armed forces is likely to increase, especially 
in light of increased U.S. hostility to the Cuban regime.
    Theories of transition, whether from dictatorship to democracy or 
from war to peace, emphasize the role of ``hurting stalemates'' \11\ in 
which the cost of continuing on a certain path appears higher than the 
cost of seeking an alternative. ``Hurting stalemates'' can emerge as a 
result of objective conditions--huge battlefield reversals for one side 
in an armed conflict, for example. But they are also highly subjective, 
rooted in the perceptions of key leaders as to their future with and 
without a negotiated outcome.\12\ Influencing perceptions requires 
offering incentives in addition to meting out punishment. The contours 
of what a negotiated settlement in Venezuela could look like require 
extensive consultation. The goal, however, is straightforward--to 
create the conditions for a free and fair election in Venezuela in 
which the opposition can openly compete without disadvantage and assume 
office should it win. Does that goal require institutional reform, 
especially of the electoral council? Yes. Does it require international 
observation and perhaps even supervision of the process? Again, yes. 
Does it require the end of chavismo as a political force, or its 
integration into a functioning, pluralistic democracy? No to the first, 
yes to the second. Does it require the immediate purging of the 
military, or the extradition of Venezuelan officials indicted by the 
United States to face justice in this country? I believe the answer is 
no.
---------------------------------------------------------------------------
    \11\ I. William Zartman, ``Ripening Conflict, Ripe Moment, Formula, 
and Mediation,'' Bendahmane and McDonald, eds., Perspectives on 
Negotiation: Four Case Studies and Interpretations (Washington, DC.: 
Foreign Service Institute, 1986).
    \12\ Cynthia J. Arnson, ed., Comparative Peace Processes in Latin 
America (Washington, DC. and Palo Alto: Woodrow Wilson Center Press and 
Stanford University Press, 1999. 451-54.
---------------------------------------------------------------------------
    Successful democratic transitions unfold over time, guaranteeing 
initially a basic set of new rules of the game, the preservation of the 
core interests of key actors with the power to threaten or halt the 
transition, and the establishment of processes for the channeling of 
differences. They require flexibility regarding preconditions and 
significant and at times deeply distasteful compromises among former 
antagonists.\13\ Negotiations in the Venezuelan context have an 
extremely bad name. They were used by Maduro for years to buy time, 
divide the opposition, and avoid concessions. The question is whether 
in today's circumstances a true "hurting stalemate" is at hand. I 
believe that it is, and that it is therefore up to us to marshal the 
imagination to identify and commit to the needed compromises to bring 
about a democratic and non-violent outcome to Venezuela's current 
tragedy.\14\
---------------------------------------------------------------------------
    \14\ See Abraham F. Lowenthal, ``Trump can't solve Venezuela's 
crisis alone. Achieving peace will require difficult compromises, not 
force,'' NBC News, February 1, 2019; and International Crisis Group, 
``Negotiating an Exit from Venezuela's Bruising Deadlock,'' March 4, 
2019.
    \15\ The EU-led International Contact Group could provide a 
mechanism that avoids the pitfalls of past negotiations with Maduro. 
Its goals are two-fold: ``i) establish the necessary guarantees for a 
credible electoral process, within the earliest timeframe possible; ii) 
enable the urgent delivery of assistance in accordance with 
international humanitarian principles.'' The group includes 
representatives of the EU, Germany, France, Spain, Italy, the 
Netherlands, Portugal, the UK, and Sweden as well as Bolivia, Costa 
Rica, Ecuador, and Uruguay. See https://eeas.europa.eu/headquarters/
headquarters-homepage/57788/international-contact-group%E2%80%93-
meeting-7-february_en. See also, David Smilde and Geoff Ramsey, ``El 
Grupo de Contacto Internacional: la mejor oportunidad de Venezuela,'' 
New York Times en Espanol, February 12, 2019.

    Senator Rubio. Mr. Farnsworth?

 STATEMENT OF ERIC FARNSWORTH, VICE PRESIDENT, COUNCIL OF THE 
                    AMERICAS, WASHINGTON, DC

    Mr. Farnsworth. Mr. Chairman, good morning. And good 
morning to Mr. Ranking Member, Mr. Menendez, Mr. Cruz, and from 
my home State of Virginia, of course, Mr. Kaine. Thank you for 
the invitation again to appear before all of you. It is a real 
privilege.
    Before I begin my remarks, let me reiterate comments that 
have already been made by several members of the subcommittee 
about the bipartisan nature of this issue. This is huge, it is 
fundamental, and it puts the United States behind this effort. 
I think, first of all, that is critically important. But 
second, I want to thank the members of the subcommittee in 
particular for your leadership and for the way that you have 
positioned this issue. I believe that that is fundamental and 
very, very important, so thank you.
    Let me give you the bottom line first, if I may. I believe 
Chavismo has turned Venezuela into a ruined state. The nation 
that boasts the world's largest proven oil reserves is an 
economic basket case, wracked by hyperinflation, shrinking 
economic growth, food and medical shortages, and criminal 
bands, including officially sanctioned drug traffickers, and 
street crime. The private sector is prostrate, and investment 
has essentially dried up. Oil production, which is the 
lifeblood of the economy, has collapsed through lack of 
investment, unimaginable corruption, and the loss of essential 
human capital. Abundant natural resources such as gold, which 
we have already heard about, are being plundered, leading to a 
full-scale assault on Venezuela's fragile Amazonian ecosystem.
    As the economy has soured, Nicolas Maduro has tightened 
control. Every institution except the National Assembly has 
been bent to his will. The rule of law has been thoroughly 
corrupted. The press has been coopted or muzzled, and 
journalists harassed and detained, and we have already heard 
about Cody Weddle and Jorge Ramos in this hearing this morning. 
Social media is being monitored actively. Venezuela's 
intelligence and security services, and other state functions, 
are strongly influenced, if not directed, by thousands of 
Cubans embedded in the regime.
    Mr. Chairman, outsiders have already intervened in 
Venezuela and continue to do so. With more than 10 percent of 
Venezuela's total population now outside the nation and more 
leaving every day, we are witnessing the worst manmade 
humanitarian tragedy of the modern era in the Western 
Hemisphere.
    The United States has received thousands of Venezuelans, 
and bipartisan legislation has been introduced--we have already 
talked about this--to provide TPS to some 72,000 Venezuelans 
who are already here.
    The dramatic return to Venezuela this week of Interim 
President Juan Guaido has given renewed hope to the Venezuelan 
people. His task, moving Venezuela toward free and fair 
elections, is greatly complicated by Maduro's continued 
occupation of Miraflores Palace. With Maduro's departure it 
would be possible to contemplate a successful re-launch of 
Venezuela's democratic system, including the release of 
political prisoners, restoring press freedoms, and 
depoliticizing electoral mechanisms, and that is just the 
beginning.
    Reconstruction will also be long and arduous. The new 
government will require breathing room to get itself 
established, no doubt. Quick disbursing aid from the 
international community is therefore essential.
    Citizens of Venezuela must be convinced that their lives 
will meaningfully improve under democracy. Transparency and 
enforceable rule of law are key to this issue. It will be of 
little benefit, in my view, to replace existing corruption with 
new corruption. Faith in the new democratic government will be 
fragile and can easily be destroyed without attention to such 
issues.
    Venezuela was at one point Latin America's wealthiest 
nation. Someday it may be again. Meanwhile, the humanitarian 
tragedy caused by Chavismo and its leaders gets worse every 
day. The Maduro regime has shown it would rather kill its own 
people than allow foreign aid into the country to help them. 
Continually escalating sanctions, including visa restrictions, 
are therefore an appropriate response. Ultimately, however, the 
regime will have to depart for lasting recovery and true 
reconstruction to begin.
    Mr. Chairman, I want to thank you again today for the 
opportunity to testify before you and the subcommittee, and I 
look forward to your questions.
    [The prepared statement of Mr. Farnsworth follows:]

                 Prepared Statement of Eric Farnsworth

    Good morning, Mr. Chairman, Mr. Ranking Member, and Members of the 
Subcommittee. It is a privilege to appear before you today to discuss 
U.S.-Venezuela relations and what it will take to return that proud 
nation to a vibrant democratic path. Thank you for the attention that 
you are bringing to these important issues, and for your leadership in 
addressing them, which has been critical. We very much appreciate your 
strong, focused, bipartisan interest in restoring Venezuela's future to 
the Venezuelan people, and look forward to supporting your efforts 
moving ahead.
                   outlines of the venezuelan crisis
    To give you the bottom line first: Venezuela has been wrecked by 
Chavismo. By now the outlines of the economic, political, and 
humanitarian crisis are well-known.
    The nation that boasts the world's largest proven oil reserves is 
an economic basket case, wracked by hyperinflation, shrinking economic 
growth, food and medical shortages, and criminal bands and street 
crime. The private sector is prostrate and investment has essentially 
dried up. Oil production--the lifeblood of the economy--has collapsed 
through lack of investment, unimaginable corruption, and the loss of 
essential human capital. U.S. purchases of oil have steadily declined, 
even before sanctions. Much of the oil production that remains is 
either given outright to Cuba or delivered to China, Russia, and others 
through sweetheart deals. Abundant natural resources such as gold are 
being plundered by the regime and others including recalcitrant FARC 
and ELN guerrillas seeking safe-haven from Colombia, leading to a full-
scale assault on Venezuela's fragile Amazonian ecosystem which may 
never recover.
    Even as the economy has soured, the Maduro regime has tightened its 
control on the Venezuelan people. Every institution of the State except 
the National Assembly has been bent to the will of the executive. The 
rule of law has been thoroughly corrupted. The press has been 
shuttered, co-opted, and muzzled, and journalists harassed and 
detained. Social media is monitored.
    Increasingly, through technology sold by China and Russia and 
applied under their and also Cuban tutelage, the Maduro regime has 
taken steps surreptitiously to identify and track both regime 
supporters and also those who do not support the regime. Its 
intelligence and security services and other State functions are 
strongly influenced if not directed by thousands of Cuban personnel 
embedded in State organs. Outside intervention has already occurred and 
continues to occur in support of the Maduro regime.
    From the humanitarian perspective, with more than 10 percent of 
Venezuela's total population now outside the Nation and more leaving 
every day, we are witnessing the worst man-made humanitarian tragedy of 
the modern era in the Western Hemisphere. Refugees are flowing out of 
Venezuela's porous borders into Brazil, Colombia, Ecuador, Peru, and 
even as far away as Chile and Spain, in addition to, among other 
places, the small islands of the Caribbean that can be reached by boat. 
Needless to say, virtually none of these economies have the absorptive 
capacity to receive significant population inflows from Venezuela, 
especially over the longer term. For its part, the United States has 
already received thousands of Venezuelans with more on the way, and, on 
a bipartisan basis, legislation has been introduced to provide 
Temporary Protected Status for 18 months for some 72,000 Venezuelans 
already here.
                next steps toward democratic restoration
    The dramatic return to Venezuela of interim President Juan Guaido 
earlier this week has given a renewed spark of hope to the Venezuelan 
people. His courageous acceptance of the burden of leadership has led 
to threats against him and his family, consistent with similar tactics 
employed by the Maduro regime against its political opponents: 
harassment and arrest, exile, or even death. Guaido's actions have 
unified the opposition and provided the Venezuelan people with one 
individual around whom to rally.
    Nicolas Maduro's May 2018 ``re-election'' was a farce. Although he 
continues to occupy the Miraflores Palace, his term in office ended on 
January 10, 2019, and his efforts to remain as leader thereafter by 
proclaiming himself president and fraudulently re-inaugurating himself 
have been widely rejected by the international community. Under 
Venezuela's Chavez-promulgated constitution, in the absence of an 
elected president the leader of the National Assembly is recognized as 
the interim president, with a mandate to establish conditions for and 
to oversee free and fair elections to determine the next president. 
This the role into which Guaido has been thrust.
    His task is complicated. Because the Maduro regime will never allow 
free and fair elections to occur, the regime will have to leave office 
and, likely, depart the country altogether, as a condition precedent 
for such elections. Regime departure would allow for the relaunching of 
Venezuela's fully politicized and corrupted electoral machinery, from 
voter lists both inside and outside Venezuela, to voting machines free 
from irregularities and cyber manipulation, to the establishment of a 
fully independent body of non-partisan electoral authorities. 
Candidates for office will have to be restored through the release from 
arrest and the return from exile of leading opposition political 
figures. A democratic renewal will require the restoration of press 
freedoms which have been systematically destroyed by the regime, ending 
State control of media and censorship in order to reach those with 
limited access to alternative media and technology. It will also 
require a significant in-country presence of professional elections 
systems officials not just election-day monitors, with a mandate to 
restore procedural independence from any government or political party. 
It will require enhanced physical security both in the cities and rural 
areas, to prevent harassment and intimidation of voters, especially in 
areas with a strong Chavista overlay. And it will also require, on the 
economic front, immediate humanitarian assistance and the restoration 
of functioning economic signals so that Venezuelans will be able to 
return home to their native country both as voters and also as pilgrims 
and pioneers in the restoration of a nation.
                     toward economic reconstruction
    Reconstruction will be long and arduous. It will be politically 
complicated. Transparency and certain and enforceable rule of law will 
be key. Venezuela's institutions have been so thoroughly corrupted by 
Chavismo that the faith of the people can only be restored by a 
tangible indication that their lives under a freely and fairly elected 
government will meaningfully improve.
    Initial steps for reconstruction will have to include restoring the 
value of the national currency and the slaying of hyperinflation, 
unifying and rationalizing policies that enable massive corruption 
including exchange rate policy, restoring the independence and 
professionalism of the central bank, restoring the independence and 
professionalism of national oil company PDVSA (and ending daily 
deliveries of free oil to Cuba), freeing of private sector activities 
generally to regenerate productive capacity, welcoming new inflows of 
direct foreign investment, and conducting privatizations. That is just 
the beginning. And these activities will all have to be done 
transparently and without a hint of corruption, which would immediately 
hinder Venezuela's return to democracy by causing voters to raise 
questions of fairness. It will be no benefit to replace existing 
corruption with new corruption or to replace one set of oligarchs with 
another; faith in the new government will be fragile and can easily be 
destroyed without attention to these fundamental issues.
    Meanwhile, the new government will require breathing room to get 
itself established. Quick disbursing aid is essential. Bridge aid from 
the international financial institutions will be critical, as will 
bilateral assistance, renegotiation of Paris Club and other debt, and a 
rational, transparent, and orderly process to address bondholder and 
other claims. Oil will continue to be the most significant part of 
Venezuela's economy and will be the primary driver of recovery. But 
production will also take some significant time to recover, and 
previous arrangements unwound, before the oil sector will be 
sufficiently able to fulfill its manifest role. Seizure and return of 
ill-gotten assets must also be a priority, both as a law enforcement 
and also an economic matter, although it is unclear how long such 
activities will take or the ultimate magnitude of successful recovery 
efforts, and therefore how much such efforts will be able to contribute 
to reconstruction.
    Venezuela was, at one point, Latin America's wealthiest nation. 
Someday it may be again. To get there, the current occupants of the 
Miraflores Palace must depart, and the international community will 
have to come alongside the Venezuelan people to offer financing and 
technical assistance, among other things, to help restore and relaunch 
democracy. Meanwhile, the humanitarian tragedy caused by Chavismo shows 
no sign of abating; in fact, it gets worse every day. So long as the 
Maduro regime remains in place, the United States together with our 
regional and extra-regional allies must continue to insist that the 
Maduro regime open its doors to the assistance that has been 
accumulating outside Venezuela's borders, doing what we can to help the 
interim government deliver aid to suffering Venezuelans both in and 
outside the country.
    Current circumstances whereby the Maduro regime would rather kill 
its own people than allow aid into the country to help them are simply 
unacceptable. People are suffering and people are dying, needlessly, at 
the foot of an ideological alter. Continued sanctions are thus an 
appropriate response in an effort to get the Maduro regime to change 
course, to depart voluntarily or to be forced out by the people of 
Venezuela perhaps through the military acting according to the national 
constitution.
    Mr. Chairman, thank you again for the opportunity to testify before 
you today. I look forward to your questions.

    Senator Rubio. Thank you.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank both of our witnesses. And again, thank you 
for your patience. It is important that we have the views not 
only from our government witnesses but from the private sector.
    Dr. Arnson, I just want to underscore the point that you 
made that has been talked about by several of the members, and 
that is keeping all options on the table and the potential use 
of the U.S. military, which I would strongly disagree with at 
this point.
    But just to underscore the point that you made in your 
statement that it would erode the consensus between the United 
States hemispheric democracies and the countries of Europe over 
how to approach the Venezuelan crisis, and then you pointed out 
that one should not underestimate the drastic consequences for 
regional stability should it occur, I think we all share those 
sentiments, and I was pleased to see the response from the 
government witnesses as to the no planning on the use of 
military.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    I want to start with the same question that I asked the 
previous panel, which is we are at a potential tipping point in 
Venezuela, and in particular the military and the generals have 
to make a decision with whom to stand. In both of your opinions 
and judgment, what carrots or sticks would have the greatest 
impact in speeding along the exit of Maduro and a transition to 
a democratically elected and legitimate regime?
    Mr. Farnsworth. Thank you, Senator Cruz. I agree with the 
implications of the question that the real arbiter on the 
ground in Venezuela is the military and those with the guns, 
which is the monopoly of the regime at this point. So at some 
point you have to either get them to stand down or switch sides 
and switch their allegiance to Mr. Guaido as the interim 
president.
    These are individual decisions. These are decisions that 
are made based on people's best guess for their own prospects 
and that of their family, and our understanding is that many of 
the people who remain ``loyal to the regime'' are not doing so 
because they particularly like Mr. Maduro, or even like his 
social project or whatever it is, but because they are afraid. 
They are afraid that they will obviously lose their jobs and 
their pensions, but they might actually be killed, and the way 
that the security services are being monitored, not just by the 
Venezuelans but also by some of their outside advisors, there 
is a real sense of who may be looking to create conditions to 
try to overthrow the government or leave or what have you. So 
it is a very delicate situation.
    What can the United States and the international community 
do? I think we can continue, as was discussed in the previous 
panel, to express openness that those who do not have blood on 
their hands, those who have not participated in human rights 
abuses would be welcomed into a new Venezuela. I think that is 
absolutely appropriate.
    But I think at the end of the day, the people have to 
understand that there will be change in Venezuela because they 
want to be on the winning side, they want to be on the side 
that is left standing. If they think that Mr. Maduro will have 
the opportunity to remain forever, then the choice to switch 
their allegiance to Mr. Guaido becomes that much more fraught. 
If they believe that Mr. Guaido, in fact, will be ascending to 
real power in the Miraflores Palace, then the decision in some 
way becomes a little bit easier. I am not saying it is easy, 
but it will be easier.
    So to the extent that the international community can 
continue to show the commitment for real and lasting democracy 
in Venezuela, I believe that is the most potent thing that we 
can do at this time.
    Dr. Arnson. I would like to add to that. It is going to be 
very difficult, I think, to break the high command. The number 
that I have heard is 2,000, Senator Cruz, not 3,000, but it is 
still a substantial number, and whatever it is, it is at least 
double, if not triple, what we have in the United States in an 
armed force that is vastly larger.
    I recall that in the Chilean transition, General Pinochet, 
who subsequently was made to stand trial for his crimes of 
torture and killing of political opponents, remained as the 
head of the armed forces and then became a senator for life.
    There are things that are done at the outset of a 
transition that are deeply distasteful, repugnant. But 
nonetheless, I also recall the words of a great teacher, 
friend, jurist from Chile who headed their Truth Commission, 
Jose Zalaquett, who talked about the ``ethics of 
responsibility,'' which is to say that we are not talking 
necessarily about pure justice right away. Obviously, everyone 
should have to pay for crimes against humanity, for torture, 
for killing, for the levels of corruption and drug trafficking 
that they have engaged in. But what you can accomplish 
initially as you have a transitional government leading to 
elections is very different from what can occur down the line, 
and I think the United States has an important role to play in 
this.
    Again, as distasteful and contrary to the whole concept of 
the rule of law that this may seem, if people feel that if they 
change or if they somehow agree to break with the regime, what 
awaits them is a super-max jail cell in the United States, you 
will never see the movement of those people. We have to think 
in very pragmatic terms, not in absolutist terms, be flexible, 
but also listen to what the Venezuelan opposition is doing in 
terms of speaking to the military, making that outreach, 
because it is clear that the offer of amnesty has not yet been 
sufficient.
    Senator Cruz. One additional question, Mr. Farnsworth. You 
made reference to the Cuban soldiers and thugs that are on the 
ground in Venezuela. Can you detail a bit more the malign 
influence that Cuba is having propping up the Maduro regime?
    Mr. Farnsworth. From what I know from outside open sources, 
they have been very active particularly in the security 
services, offering not just guidance in terms of how to 
organize intelligence operations but also helping the 
Venezuelans carry them out in some cases. They have also been 
active in state functions such as passport agencies and 
authorities so that they know who is coming in and out of the 
country, and these are reports from open sources, et cetera.
    You do not need a whole lot of people from outside the 
country to do a lot of damage if they are embedded in the most 
sensitive areas of the government and the areas that have 
control of the population, and this is what the Cubans have 
primarily focused on, is my understanding.
    So with that in mind, it has become a very complicated 
effort, and to try to get some of these folks, Venezuelans, who 
may want to do the right thing, they do not know who is 
watching them, they do not know what information they have on 
them, they do not know who is watching their families. It is a 
really complicated and difficult scenario.
    Senator Cruz. Thank you.
    Senator Rubio. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    First of all, I want to thank our witnesses for their 
longstanding sharing of their knowledge with the committee over 
many different issues, over many different times.
    I really just want to make a statement. I understand the 
concern of many, including some of my colleagues, about 
military intervention in Venezuela. But I am concerned that in 
the process of that constant refrain, that we lose sight of who 
the Venezuelan people have to have real fear of.
    The Venezuelan people have the threat of military force by 
only one entity. That is Nicolas Maduro and the generals who 
have to decide whether or not they are going to support 
democracy and human rights or whether they are going to support 
a dictatorship and turn their guns on their brothers and 
sisters.
    That is why our message is very clear: if your hands are 
free of blood and human rights violations, you have a future. 
President Guaido has said that you have a future, and you have 
a future free of sanctions that the United States will follow 
you anywhere in the world unless you do not have blood on your 
hands.
    There is only one entity in which the Venezuelan people 
face violence, and that is from the colectivos and the armed 
thugs that Nicolas Maduro has unleashed upon its people, not 
from any other entity in the hemisphere.
    There is only one person who causes the suffering of the 
Venezuelan people. It is not sanctions by the United States or 
anyone else. It is by the failed policies of Nicolas Maduro, 
who takes one of the wealthiest countries in the Western 
Hemisphere and has his people eating out of garbage.
    It is only one entity that has stolen the national 
patrimony of Venezuela, and that is Nicolas Maduro.
    And it is only one set of interventions that has taken 
place inside of Venezuela. It has taken place by Cuba, that has 
its security apparatus propping up Maduro. If you go into 
Caracas, you ultimately get searched by Cuban agents. Cuban 
agents are in the midst of creating silos among the generals in 
Venezuela so that they cannot talk to each other because they 
are fearful that if they do, that their head will roll, and 
they therefore cannot talk about joining together to maybe 
support a democratic government. That is intervention.
    There is only one intervention by a foreign country. That 
is Russia, as it continues to prop up the Maduro regime in a 
whole host of ways, not the United States of America.
    And finally, I really tire somewhat of the suggestion about 
our sanctions. I have done foreign policy for 27 years between 
the House and the Senate. I only know of a handful of peaceful 
diplomacy tools to get countries to move in a certain 
direction. International criticism, condemnation and opprobrium 
may move a democracy, but I have not seen it move many 
dictators. I wish that it would, but it has not.
    So what are we left with? Unlike Russia, that uses military 
adventurism to pursue its foreign policy goals, we only have a 
handful of peaceful diplomacy tools, the use of our aid to 
induce countries to act a certain way, the use of our trade and 
access to our markets to induce countries to act a certain way, 
the leverage of our entities like USAID to help countries, and 
then there is the denial of aid or trade or access to our 
financial institutions, which we generally call sanctions.
    Now, I would be happy to get a lesson about what other 
phalanx of peaceful diplomacy tools we have. So unless we are 
willing to accept a dictatorship that oppresses its people, 
that does so by force, and that has them eating out of garbage 
cans and denies them the critical medicines necessary to stay 
alive, I am not going to be repentant about our advocacy for 
sanctions as a peaceful tool to try to move a country in a 
better direction, and that includes Venezuela.
    So I hope we just do not lose our eyes on who is 
responsible for the suffering of the Venezuelan people. His 
name is clear. It is etched in stone. It is etched in history. 
And hopefully he will face the opprobrium of history at the end 
of the day, and that is Nicolas Maduro.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    I am reclaiming my time, and then I will recognize Senator 
Kaine, and then, unless anybody else comes, we will wrap up.
    The 3.4 million people who left Venezuela were from 2014 to 
2018. The U.N. projection that 2 million more were going to 
leave was established late last year as well.
    The figure that 90 percent of the people of Venezuela live 
in poverty and have lost on average 24 pounds was a 2018 
number.
    The chronic and infectious diseases running rampant, 
hospitals lacking in supplies, has been ongoing for a number of 
years.
    The reduction in refining capacity, down to about only 25 
percent due to poor management, poor maintenance, is 
preexisting back to 2018 and before.
    The repeated denial of recognizing humanitarian 
catastrophe, much less allowing humanitarian aid to enter the 
country, did not begin on February 24th. This has been a 
longstanding policy of the Maduro regime.
    And I say all this because the idea that sanctions are 
going to exacerbate the humanitarian condition of the 
Venezuelan people assumes that any of the revenue they were 
generating previous to the sanctions--because up until the 24th 
of January, all the sanctions were on individuals. They were on 
people, not on any sectors. So the argument that sanctions 
could make things worse assumes that the Venezuelan people were 
enjoying any of the benefits of the revenue that was being 
generated previous to that, which all the evidence was clear 
that they were not.
    On the contrary, I know of no other nation--maybe there is 
one; I do not know--in which their defense minister also 
happens to be the chairman of the board of oil and gas. I know 
of no other place where public servants who have served in 
government their entire lives are able to send their children 
abroad on shopping sprees in the tens of thousands of dollars. 
I know of no other nation in which--I guess I do not know the 
right terminology, but where the second in command has never 
been to the U.N. building, lives in New York and no one has 
seen her. That is Chavez' daughter, who is living in the evil 
United States, enjoying life in New York.
    So I think it is important to touch upon that point because 
in the days to come, as Venezuela faces severe shortages of 
fuel, you have to ask yourself how could you possibly face a 
severe shortage of fuel? You sit on the world's richest supply 
of oil. The answer is because your refining capacity does not 
exist, because instead of buying replacement parts and paying 
workers, you gave the state oil company over to your buddies so 
they can run it into the ground. It is like a tenant who is 
being evicted and they steal the copper wire out of the wall. I 
mean, they have stolen everything they can get their hands on, 
and that is why you have an extraordinary amount of wealth.
    In fact, it is funny to hear from all these regime 
insiders, because they all reach out. Every single one of them 
sends out messages: Would I be an acceptable alternative? Can 
you give me visas for my family in exchange for us breaking? It 
is funny to hear them say, by the way, I am just corrupt; I am 
not a narco trafficker. I am just old-fashioned corrupt with 
hundreds of millions of dollars.
    What other country in the world has generals who make 
hundreds of millions of dollars? That is a heck of a pension 
plan. I have never seen anything like that anywhere in the 
world. They are getting their money from somewhere, and every 
penny that goes into their hands is not going to the Venezuelan 
people.
    So the bottom line is that this did not start yesterday, 
nor did it start on the 24th of January, when sanctions were 
imposed on the oil industry. The fact of the matter is that 
virtually every penny generated from the sale of oil for cash 
that was sold primarily to the United States, of which it is a 
very small percentage of our capacity but a significant 
percentage of what they sell for cash around the world, went to 
their pockets, went into their hands. And all of the narco-
trafficking fees that they charge go into their hands. None of 
that finds its way to the people of Venezuela.
    So I only say that because that is the argument they are 
trying to set up, and they are going to try to use the U.N. and 
the visit over there next week to sort of highlight that, but 
it is a fraud, it is a farce, and the people of Venezuela know 
it. They do.
    It is funny, this issue has been in the paper now for six 
weeks. There are a lot of Venezuela experts now. But I have 
been dealing with this for five years. So has Senator Menendez 
and a lot of people on this committee. None of this stuff is 
new. It has just gotten worse because they are running out of 
things to steal.
    So the second point that it brings me to is the loyalty. 
Yes, there are 2,000 generals. I would say that there are about 
six to eight of them that actually matter, and one in 
particular, Padrino Lopez, that actually matters, the guy who 
also chairs oil and gas. He has a day job and a night job, and 
his family meanwhile lives in Spain.
    So the question really becomes their loyalty is not 
ideological; it is financial. Every single one of them is not 
loyal to Nicolas Maduro, not loyal to Chavismo. They are loyal 
to dollars, dollars--not euros, not bolivars, not Cuban pesos--
dollars. That is what they are loyal to.
    And hence, the less of that they have, the less reason they 
have to be loyal, theoretically anyway. And that is one of the 
things that we--this is no longer ideological. I am not saying 
Maduro is not ideological. He probably is a true-blue believer 
in the Cuban model, and he thinks that he needs to go through 
this ugly period of time to get to that point. But the rest of 
these guys, they like money, and they have shown that not just 
in the way they live but in the way their families live.
    And that is critical to all of this, because in my view--
and this is really my question to both of you. The formula that 
brings us to this point is a combination of three things. One 
is widespread unrest, which is already ongoing and is tied to 
the legitimacy of the government, the interim government. But 
widespread unrest--and we see that every time that Interim 
President Guaido, despite Internet blocks, every time he speaks 
on TV, the Internet goes dark as those Chinese workers over 
there are helping him block the Internet at key moments, and 
yet he is still able to get hundreds of thousands of people 
into the street. Widespread unrest.
    Number two, the loss of military and elite support.
    And number three, continued international pressure.
    And the combination of those three things ultimately leave 
Maduro with dwindling and very stark options, and I believe a 
safe haven for him, which is probably in Turkey or somewhere 
like that.
    Is that not ultimately what needs to happen here? The 
combination of widespread unrest, loss of military and elite 
support, and continued international pressure that ultimately 
presents him with stark choices and either causes him to move 
out of the way in a negotiated exit, or causes those who 
continue to prop him up to force that negotiated exit and a new 
beginning?
    Dr. Arnson. I will start with that, Senator Rubio. I think 
what has struck me throughout this hearing is I do not think 
there is really much disagreement at all about what reality is 
in Venezuela and who is responsible.
    On the question of sanctions not being the source of the 
humanitarian crisis, I could not agree more. The politicization 
of humanitarian aid was started by the Maduro regime by its 
refusal to admit that there was a humanitarian crisis in the 
country and by not allowing international support in. The 
hunger, the loss of weight, the lack of food and medicine, all 
of these have been longstanding and predate in many ways the 
sanctions.
    My concern about the additional effect of the sanctions is 
based on talking actually to humanitarian workers inside 
Venezuela who are concerned not that people, rather than eating 
three meals a day, go down to two meals a day and lose 20 
pounds, but there is actually widespread starvation, the kinds 
of things that are shown in this photo. This is why I think 
that it would be very important to channel some portion of U.S. 
assistance--not just have it parked on the border waiting to go 
into Venezuela--but actually channel it through the various 
organizations that have been able to maintain their neutrality 
and are on the ground and are looking for a non-political way 
to get that money in and get it out to needy people regardless 
of political affiliation.
    The three things that you mentioned, the three factors--the 
unrest, the loss of military and elite support, and 
international pressure--I could not agree more that these are 
the ingredients for what will bring about change in Venezuela. 
The question is how do you increase the relevance of the second 
factor that you mentioned, the loss of military and elite 
support. That is, I think, the key issue that all of us that 
are concerned with the democratic transition in Venezuela 
should be focused on. How do we bring that about? What 
combination of carrots, sticks, off ramps, visas do we 
contemplate in order to get sufficient buy-in that there is a 
regime transition?
    And then finally, I would just say that the widespread 
unrest that exists now that President Guaido is able to 
mobilize may not necessarily last, and I think there is a 
concern broadly that time may not be on his side. The regime 
certainly feels that time is on its side.
    I think it is important to remember that people who are 
starving do not mobilize in the streets. If you look at some of 
the old classics, Why Men Rebel, it is not absolute poverty. It 
is that rise in expectations, and I think that is why we are 
seeing, after the 2014 protests, this enormous outpouring of 
renewed street demonstrations. That is not sustainable over the 
long term as the sanctions take their bite.
    Senator Rubio. My only comment on that is that people who 
are starving do mobilize. They leave, and that is what they 
will do. But the borders are closed.
    Dr. Arnson. Correct, correct. Exactly.
    Senator Rubio. I am sorry, Mr. Farnsworth.
    Mr. Farnsworth. No, not at all, and thank you for the 
opportunity. I want to say how much I appreciated both your 
statement and Mr. Menendez' statement. I think you have 
encapsulated these issues very, very effectively and very well, 
very powerfully.
    Just to add a couple of quick things, if I may. I do agree 
with the framework that you just laid out in terms of the three 
key aspects, and I also agree that the loss of military and 
elite support remains the key in some ways, and indeed the most 
difficult.
    You know, the point that you raised, Mr. Rubio, about how 
you have some of the leadership, indeed all of the leadership 
of the military and security forces fully invested in the 
continuation of the regime I think is accurate. And why? 
Because the regime has very effectively bought them in through 
access to unimaginable levels of corruption, whether it is 
through PDVSA or different exchange rates or controlling the 
import of certain items like food. I mean, you have generals 
literally in control of the import of beans, and generals in 
control of the import of chickens. It is weird, right? That is 
not what militaries are supposed to do, but it buys them into 
the continuation of the process.
    And then you have the entire system of drug trafficking 
that has not just been sort of allowed but encouraged as 
another way to buy some of these officials into the 
continuation of the regime and to buy off their loyalty.
    So how do you begin to get at that? Because they are not 
the ones who are going to shift. They are not the ones that are 
going to go to Colombia and declare their allegiance to Mr. 
Guaido. The first panel alluded to it a little bit, but we 
really need to go hard after the assets that these folks 
maintain outside of Venezuela--well, inside too, but outside 
Venezuela. Identify the assets, seize them, and cause them to 
forfeit them.
    These are ill-gotten gains. They are stolen either from the 
Venezuelan people or through illegal activities. They have no 
call on them. So the international community, working together, 
I think that is a very powerful aspect.
    And then the second one is one that the Administration has 
begun to explore more actively, and that is the whole visa 
issue. By taking visas away from individuals, I think that is 
powerful. It is equally powerful to either deny visas or remove 
existing visas from family members who may be in Spain or 
France or Italy or wherever. So if you can work together with 
other governments in Europe particularly, but also Latin 
America, this becomes a powerful incentive because now the ring 
begins to close on the individuals who are causing the most 
damage in Venezuela.
    Now again, I do not believe that is necessarily going to 
cause them to change their allegiance to Mr. Guaido, but it 
does provide a powerful signal to those underneath who are the 
most likely perhaps to change, that if they continue on the 
current path, their future is not going to be a happy one, and 
if they switch, their future is going to be much better.
    So it gets to the carrots and sticks issue that has come up 
several times in the hearing.
    Senator Rubio. Senator Kaine?
    Senator Kaine. I want to ask about Colombia. I think one of 
the best examples of the U.S. using a comprehensive approach to 
deal with a foreign policy objective has been the work in 
Colombia, sustained over Democratic and Republican 
administrations, and I would like to ask your perspective on 
how the current status in Venezuela affects Colombia, affects 
the peace process, affects the path toward restoring 
governmental services in parts of the country that had been 
abandoned for decades. Talk about what is at risk there and 
what we ought to do to protect the advances that we have helped 
achieve.
    Dr. Arnson. I will start. I think a great deal is at risk. 
I think that Colombia is simply unprepared to absorb the 1.1 
million that are already in, let alone the million- plus that 
are going to be arriving in 2019 as the Venezuelan economy 
continues on its death spiral.
    Colombia has, as you know, this fiscal rule that requires 
that there be a progressive decrease in the deficit. At the 
same time, it faces spending needs to implement aspects of the 
peace agreement that talk about connecting the rural to the 
urban and bringing state presence not only in a physical or 
security sense to these previous conflict zones but also 
opportunities, services, infrastructure. It cannot all be done. 
It simply cannot all be done.
    I think that there is a great risk that without the 
resources, without the backing of the international community, 
Colombia will make very hard choices.
    I also believe that the refugee flows throughout Latin 
America are going to have an indelible impact on the politics 
of the region for the foreseeable future. Just as politics in 
Europe have been deeply impacted by the influx of refugees from 
Syria and Libya and Afghanistan and Iraq and other conflict 
zones, and not in a good way I would say, I do fear that there 
will be similar impacts on the ability of countries to sustain 
liberal pluralist democracies.
    I think that right now we are focused on the humanitarian 
emergency and how we are going to feed these people and give 
them access to medical care and allow their kids to go to 
school. We need to put out sort of an early warning about the 
impact on the political systems not just in Colombia but also 
in Peru and Ecuador and everywhere else.
    Mr. Farnsworth. I fully agree. You know, Colombia has some 
difficult fiscal circumstances, and something has to give. I 
mean, you have a peace process that requires billions of 
dollars of investment, not just to implement the accords 
directly but also to develop the areas of Colombia to allow 
this peace to be sustainable. They have also had a soft economy 
which has to be revitalized, and President Duque is working on 
that, clearly. You have drug production now that has spiked. 
That requires new resources as well. And now you have a 
humanitarian crisis worse than any we have seen in the Western 
Hemisphere in the modern era. There is simply not resources for 
that.
    So I think the international community can come alongside 
the Colombians to try to mitigate the worst impact of that.
    But there is another point that I think also needs to be 
raised, and that is that Venezuela, under first Hugo Chavez and 
now Nicolas Maduro, has provided safe haven for FARC and ELN 
combatants. They are in some ways leading directly to some of 
the destruction of Venezuela. Now, it is not a political thing. 
It is not a guerilla force. They are not working to take over 
the government. But they are working directly in the illegal 
gold mining sector. They are working in crime and criminal 
activities. And they are working in drug trafficking. This is 
maybe left over from the Colombian experience, but it is still 
related.
    So to the extent that the Venezuela problem continues to 
deteriorate and Venezuela turns toward becoming a failed state, 
and I do not know what the proper definition of failed state 
is, but to the extent that it is turning toward one, that gives 
greater permissiveness for recalcitrant elements of the FARC, 
the ELN and others to conduct their affairs in a lawless way, 
and I think that is ultimately not just self-defeating but it 
creates real complications in terms of reestablishing rule of 
law and revitalizing the democracy in Venezuela, if it comes to 
that.
    So I really appreciate the fact that you linked the two 
countries together. They are together historically, 
politically, and this is just yet another example.
    Senator Kaine. Very good testimony, very good hearing. 
Thanks, Mr. Chair. I appreciate the witnesses.
    Senator Rubio. Thank you.
    Just three quick points I want to make as we wrap up. The 
first is these nation states that want to be helpful, many of 
whom have expressed concern about some angle of our policy or 
statements, I think it is incumbent on them to step up to the 
plate. If they do not want certain things, then do the things 
that you are willing to do, the visa revocations, the 
additional sanctions.
    I think we appreciate the recognition of President Guaido, 
but there is more that can be done, and there are a handful of 
countries that happen to be the favorite destination of some of 
these thieves and their families, and we would hope they would 
step up and do more.
    The second is, and it was touching on what you just 
mentioned, Mr. Farnsworth, I do not believe that the Maduro 
regime should be viewed as a government. It does not operate as 
a government. It is better understood as an organized crime 
syndicate. It operates like an organized crime syndicate. There 
is very little in the way of government on a daily basis. It is 
largely a group of people bound together by the ability to 
steal and make money.
    But the way you collapse an organized crime syndicate is 
you recognize they are a bunch of thieves and criminals and 
they have no honor, and they end up turning on each other in 
their best interest, because that is really what it has become. 
I mean, that is, by and large, what binds that organization 
together. It is an organized crime ring which, by the way, 
sponsors terrorism. As you have outlined, the ELN openly 
operates in their territory and as recently as a month ago 
killed 20 police cadets in Colombia in a bombing.
    And last but not least on aid and working with the 
organizations, that would be a great idea. The problem is that 
the current aid now is basically an open secret. These aid 
groups that are operating in Venezuela need to do so, but they 
need to do so quietly and with very little publicity, and if 
there is any uptick in the amount of aid that they are 
distributing, it gets noticed and scrutinized because it runs 
counter to two things, the Maduro regime's narrative that there 
is no humanitarian crisis--they just talk about how great 
carnival was and how all these people were at the beach.
    So they are arguing there is no humanitarian crisis. That 
is number one. And number two is the more aid there is, the 
less people depend on Maduro for food, the less he can control 
them. So the problem is that these entities do not want to 
receive an uptick in humanitarian aid to distribute because it 
would imperil the little that they are able to do now.
    As an example, you are a charity, you are feeding people in 
Venezuela today. If there is a significant increase in the 
amount of aid you are distributing, it might cancel your entire 
program because the Maduro regime does not want you to do that. 
Ideally, you would be able to work through those groups. But 
those groups do not want it because it endangers their small-
scale existing programs now, and that is a real challenge that 
we have been facing here.
    I know we have been here for two-and-a-half hours----
    Dr. Arnson. Can I comment on that briefly?
    Senator Rubio. Yes.
    Dr. Arnson. I think that that is, to a certain extent, true 
of the past in many ways. We should treat it as a hypothesis to 
be tested. The ICRC has announced a doubling of its budget for 
Venezuela. The U.N. is quietly, as you say, expanding its 
footprint on the ground, and they have to operate very, very 
carefully so as not to call attention to themselves, but I 
think there is definitely an effort, particularly in light of 
sanctions that everyone knows will expand the suffering.
    I would slightly disagree that none of the oil revenue ever 
came in. Venezuela imports--I do not know if it is 100 percent 
of its food, but pretty close, in the 90 percent. The same with 
medicine. Whatever there is in the country depends on foreign 
reserves. The CLAP boxes are a form of political control. I 
completely agree. They do provide a subsistence level. If you 
take that way, again, I think conditions get worse.
    So I do not really know what the answer is, but I think 
there are a few more subtleties to the situation that we should 
very much keep in mind.
    Senator Rubio. Just on that, it is true that they import 
their food, but the role of remittances is--there are entire 
industries of people that are sending family members food. 
There is the stuff sold on the black market for those who have 
access to that cash. There are the people, about 40 percent, 
who depend on the CLAP; and then, frankly, the people who have 
left because it is not enough for them.
    In any event, we have had a long hearing. I appreciate both 
your patience and your testimony today, along with our previous 
witnesses.
    I want to thank everyone for being here today.
    We had a huge turnout. In my seven years, it is the best 
attended Western Hemisphere subcommittee hearing.
    [Laughter.]
    Senator Rubio. And I want to thank the Capitol Police 
because they have been very helpful in channeling people in and 
out, as I know we have had a lot of demand to be in here. 
Again, I am just grateful to them for the work they have done.
    The record for this hearing will remain open for 48 hours.
    Senator Rubio. And with that, the hearing is adjourned.
    [Applause.]
    [Whereupon, at 12:31 p.m., the hearing was adjourned.]
                           
                           ----------                              


              Additional Material Submitted for the Record


                             PAHO Submittal

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
